<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009 

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:25 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Mikulski, Murray, 
Stevens, Cochran, Domenici, and Shelby.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. PETE GEREN, SECRETARY
ACCOMPANIED BY GENERAL GEORGE W. CASEY, JR., CHIEF OF STAFF, DEPARTMENT 
            OF THE ARMY


                 statement of senator daniel k. inouye


    Senator Inouye. This morning, we welcome the Honorable Pete 
Geren, Secretary of the Army, along with General George Casey, 
the Army Chief of Staff. Gentlemen, thank you for being with us 
here today as the subcommittee reviews the Army's budget 
requests for fiscal year 2009.
    The Army's fiscal year 2009 budget request is $140.7 
billion, an increase of $12.3 billion over the last year's 
inactive budget, excluding $48.7 billion appropriated through 
the Army in the fiscal year 2008 bridge supplemental. 
Additionally, the pending fiscal year 2008 supplemental budget 
request includes $66.5 billion for the Army, and the 
subcommittee expects to receive a fiscal year 2009 supplemental 
request in the near term.
    As we review these budget requests, we are mindful of the 
fact that upward of 250,000 soldiers are deployed in nearly 80 
countries. And the Army remains highly engaged in the global 
war on terror (GWOT). There is no question of the continuous 
hard pace of current operations has taken a toll on both Army 
personnel and equipment.
    Yet, as we address current, urgent needs, we cannot lose 
sight of the future. It is imperative that we prepare for the 
diverse warfighting demands of the 21st century. It is critical 
that we strike the right balance among the sometimes competing 
priorities, and we must do this with the Army's most powerful 
weapon in mind, our soldiers and their families.
    The challenge is not easy, and we are faced with many 
difficult decisions as we address the current demands, while 
continuing to prepare the Army for the future. The Army has 
embarked on the path toward addressing the challenge in various 
ways, for instance, by rapidly increasing the end strength by 
investing in new weapons and technologies and by repositioning 
its forces around the world.
    The Army's fiscal year 2009 budget request is designed to 
strike a sensible balance among these priorities. Yet there are 
questions that should not be ignored for the sake of urgency. 
For instance, the Army proposes to accelerate its growth, the 
force initiative which began last year, and to complete it 2 
years earlier than initially planned. But are we able to 
achieve this goal without sacrificing the quality of our 
recruits?
    Additionally, several high-priced modernization programs to 
include the future combat system and the Army reconnaissance 
helicopter have been beset by repeated cost overruns, schedule 
delays, and program restructures. Are we trying to do too much 
too fast? Do we have the right personnel to manage and oversee 
these complex modernization programs? What is the Army doing to 
address these acquisition challenges? And finally, are we 
confident that the goal of repositioning of forces 
appropriately addresses our current and future needs?
    It is the subcommittee's hope that today's hearing will 
help answer some of these questions and eliminate how the 
Army's fiscal year 2009 budget request addresses these 
challenges in a responsible manner.
    And so, gentlemen, we sincerely appreciate your service to 
our Nation, and the dedication and sacrifices made daily by the 
men and women in our Army. We could not be more grateful for 
what those who wear our uniform do for our country each and 
every day. Your full statements will be included in the record.
    And now, I wish to turn to my illustrious co-chairman, 
Senator Stevens, for his opening statement.


                    statement of senator ted stevens


    Senator Stevens. Thank you very much, Mr. Chairman, and 
welcome, Secretary Geren. I'm pleased to see you back before 
the subcommittee again. General Casey, again, thank you. And 
thank you, publicly, for coming to Alaska to appear before the 
Military Appreciation Day at the dinner that night, sponsored 
by the Armed Forces YMCA.
    And this is your first appearance before this subcommittee 
as Chief of Staff, and we look forward to the hearings we're 
going to have. I commend you for your service in the past, and 
look forward to working with you in the future. You are both 
here to discuss the 2009 budget request. The chairman's 
outlined that. I don't need to repeat what he has said. We have 
total agreement with regard to this budget.
    I do think, however, that we should take into account some 
of the comments being made by the Secretary of Defense about 
really the lack of funding of the Army to prepare for the wars 
that we've entered into, and look to the future to make certain 
that we're not going to have a similar situation where we might 
have another engagement where we were not prepared or trained 
for.
    So we look forward to your testimony, and welcome you to 
the subcommittee. Thank you very much.
    Senator Inouye. Thank you very much.
    Before you begin Mr. Secretary, Senators Cochran and 
Hutchison have submitted statements that they would like 
included in the record.
    [The statements follow:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming the 
Secretary Geren and General Casey this morning.
    While we are here today to discuss the Army's fiscal year 
2009 base budget request for $140 billion, we should also hear 
from Secretary Geren and General Casey about supplemental 
appropriations funding. In your posture statement that you 
provided the subcommittee today, you note you have relied on 
supplemental funding for increasing proportions of your budget 
and are in a situation today where ``the Army's base budget 
does not fully cover the cost of both current and future 
readiness requirements.'' You go on to say ``some base programs 
would be at risk if supplemental funding is precipitously 
reduced or delayed.'' I look forward to hearing more about this 
and how next year's budget will reverse this trend and restore 
what you call ``fiscal balance'' to your budget.
    This has been a year of many challenges and successes for 
our Armed Forces and the Army remains on the front lines 
protecting the United States in the Global War on Terrorism. 
Our All-Volunteer forces and their families have performed 
remarkably and our Nation owes them a debt of gratitude for 
their sacrifices.
    Secretary Geren, General Casey, thank you for your service, 
and I look forward to your testimony.
                                ------                                


           Prepared Statement of Senator Kay Bailey Hutchison

    Secretary Geren, General Casey, thank you both so much for 
coming today, but most importantly for what you do for our 
country and the soldiers of the world's finest Army.
    The State of Texas is proud of its defense industrial base 
which does so much for national defense programs of record and 
for rapid acquisition and rapid fielding of equipment needed 
for the warfighter in theater.
    To maintain such an industrial complex, to assure a sound 
budget, and to make certain our nation's soldiers are receiving 
what they need when they need it, a strong and trusted 
relationship with the Acquisition Secretary of each of our 
Defense Department's Services is required.
    Of note, my relationship with the current Acting Army 
Acquisition Executive, Mr. Dean G. Popps, has been an 
exceptional one and one which involves mutual cooperation, 
responsiveness, and respect for our nation's common goal of 
winning this war and seeing our troops come home victoriously.
    I would like to take this opportunity to commend Mr. Popps 
and his staff, and commend the Army for positioning him as the 
service's Assistant Secretary for Acquisition. I could think of 
no better leader with the resident knowledge to fulfill this 
most demanding position as we begin to debate the fiscal year 
2009 defense budget. I very much look forward to the continued 
relationship between his office and ours for the remaining 
months of this administration.
    Thank you, Mr. Chairman.

    Senator Inouye. Secretary Geren.
    Mr. Geren. Thank you, Mr. Chairman, Senator Stevens, and 
Senator Shelby. It's a privilege to come before your 
subcommittee, and we've provided the subcommittee ahead of time 
the full posture statement. And I'd like to just summarize some 
of my comments.
    It's certainly an honor for General Casey and I to appear 
before you to discuss our United States Army. An Army that's 
built on a partnership between soldiers and this Congress, and 
it's a partnership that's older than this country.
    The President's budget for 2009 is before the Congress, 
nearly $141 billion for the Army. And as always is the case, 
the Army's budget is mostly about people, and operations and 
maintenance (O&M) to support our people. Our personnel and our 
O&M budget make up two-thirds of the entire Army budget. As 
General Abrams reminded us often, ``People are not in the Army. 
People are the Army.''
    And our budget reflects that reality. Today, we are an Army 
long at war. In our seventh year at war in Afghanistan, and 
next month we will be 5 years in Iraq. It's the third-longest 
war in American history, behind the Revolutionary War and the 
Vietnam war, and it's the longest war we have fought with an 
all-volunteer force.
    Our Army is stretched by the demands of this long war, but 
it remains an extraordinary Army. It's the best-led, best-
trained, best-equipped Army we've ever put in the field, with 
Army families standing with their soldiers as they serve and as 
they re-enlist. And it's an Army of all volunteers--volunteer 
soldiers and volunteer families. We currently have 250,000 
soldiers deployed to 80 countries around the world, and over 
140,000 deployed to Iraq and Afghanistan. Our 140,000 soldiers 
in harm's way are our top priority, and we will never take our 
eye off of that ball. This budget and the supplementals ensure 
that our soldiers have what they need, and they have it when 
they need it.
    And today, and over the last 6 years, our reserve 
component--the Guard and Reserves--they've continued to 
shoulder a heavy load for our Nation. Since 9/11, we've 
activated 184,000 reservists and 268,000 guardsmen in support 
of the GWOT, and they've answered the call here at home whether 
it was for Hurricanes Katrina or Rita, brush fires, forest 
fires, or support along our borders.
    And we truly are one army. The active component cannot go 
to war without the National Guard and Reserves. The challenge 
before us, and the challenge that's addressed in this budget, 
is to continue the transformation of the reserve component to 
an operational reserve. Match the organizing, training, and 
equipping with the reality of the role of today's Guard and 
Reserves. And this budget continues the steady investment in 
new equipment for the reserve component.
    Over the next 24 months, prior years of investment will 
bear fruit. Over $17 billion of new equipment, over 400,000 
pieces of new equipment will flow into the Guard. And this 
budget includes $5.6 billion for Guard equipment and $1.4 
billion for Reserve equipment.
    And the strength of our Army, active Guard and Reserves, 
comes from the strength of Army families. Our Army families are 
standing with their soldier loved ones, but this long war is 
taking a toll. We owe our Army families a quality of life equal 
to their service. Over one-half of our soldiers today are 
married, with over 700,000 children in Army families. Nearly 
one-half of all soldiers who deploy, deploy with children 2 
years of age or younger.
    And when a married soldier deploys, he or she leaves behind 
a single-parent household and all the challenges associated 
with that family dynamic. And when a single parent deploys, he 
or she leaves a child behind in the care of others.
    In the 2009 budget, we are doubling funding for family 
programs. We're adding 26 new child development centers to the 
35 that Congress appropriated for us last year. And over the 
past year, with your strong support, we have expanded the 
availability and we've reduced the cost of childcare for our 
Army families.
    We've asked much of our volunteer spouses who've carried 
the burden of family support programs, a burden that grows 
heavier with each successive deployment, and they need help. 
Our 2008 budget and this 2009 budget provide much-needed 
support for those spouses. We are hiring over 1,000 family 
readiness support system assistants, and nearly 500 additional 
Army community service staff to provide full-time support to 
our spouse volunteers and Army families.
    And to meet the needs of geographically displaced families, 
a great challenge with the Guard and Reserves, we are fielding 
an Internet portal to bring together the Army programs, other 
Government programs, and public and private family support 
programs together in one site.
    In the 1990s Congress launched the privatized housing 
initiative for our military, an initiative that has replaced 
Army housing with Army homes, and it's an initiative that's 
created livable communities and vibrant neighborhoods on our 
posts. This budget builds on the great success of your 
initiative. Our budget for Army homes, new and refurbished in 
2009, is $1.4 billion.
    This budget continues the programs and the progress the 
Army has made in meeting the needs of wounded, ill, and injured 
soldiers. Last year, Congress gave us resources to hire needed 
medical personnel to provide better healthcare for our wounded 
warriors and meet the needs of family members who are 
supporting their loved ones. We stood up 35 warrior transition 
units to serve our wounded, ill, and injured soldiers, with 
each soldier supported by a triad of care.
    This budget continues to advance those initiatives, 
continues to address personnel shortages, improve facilities, 
and work to accomplish the seamless transition from the 
Department of Defense to the Veterans Affairs for our soldiers 
returning to private life. And we will continue to grow our 
knowledge and improve the care and treatment of the invisible 
wounds of this war, traumatic brain injury and post-traumatic 
stress disorder (PTSD), and better meet the needs of soldiers 
who suffer these wounds and better support their families.
    The generous support of Congress last year has provided us 
resources to make great progress on this front.
    In this budget, we look to the future. We never wanted to 
send our soldiers into a fair fight. This budget continues our 
investment in the programs of tomorrow, our highest 
modernization priority, future combat systems, which not only 
will shape the future of our Army, but extending out 
technologies today into today's fight.
    The armed reconnaissance helicopter, unmanned aerial 
vehicles (UAVs), the light utility helicopter, and the joint 
cargo aircraft are part of that future, and we thank you for 
your past support of those programs.
    We want to be able to say 10 years from now what we say 
today, ``We're the best-equipped Army in the world.'' And this 
budget makes a major step forward ensuring the long-term 
strength and help for our Army by moving the cost of 43,000 
active-duty soldiers from supplemental funding to the base at 
the cost of $15 billion.
    And we've accelerated the 65,000 growth and active duty 
Army from 2012 to 2010, with a commitment that we'll maintain 
recruit quality at least at the 2006 levels. We are a Nation 
long at war, facing an era of persistent conflict. Our soldiers 
and families are stretched. We are an Army out of balance, and 
we are consuming readiness as fast as we build it.
    But our Army remains strong--stretched, out of balance--but 
strong. And those who seek parallels with the hollow Army of 
the late 1970s will not find it. Our Army is stretched, but we 
have young men and women ready to do our Nation's work around 
the world and here at home.
    Every year, 170,000 young men and women join the United 
States Army, a number that equals the size of the entire United 
States Marine Corps. And every year, 120,000 soldiers proudly 
re-enlist. They're volunteer soldiers, and they're volunteer 
families, and they're proud of what they do, and they're proud 
of who they are.
    Mr. Chairman, and members of this subcommittee, thank you 
for your support of our soldiers and their families, and for 
the resources and the support you provide every year.
    I also want to thank you individually for your travels 
across this country and around the world to meet with our 
soldiers. To meet with them in the hospital, in their 
garrisons, and on the frontlines. It means a great deal to 
them, and thank you for doing that. And thank you for your 
support, and thank you for building this United States Army, 
Mr. Chairman.
    Senator Inouye. I thank you very much, Mr. Secretary.
    [The statement follows:]
 Prepared Statement of the Honorable Pete Geren and General George W. 
                               Casey, Jr.

    ----------------------------------------------------------------

                        The Army Family Covenant
    We recognize:
  --The commitment and increasing sacrifices that our Families are 
        making every day.
  --The strength of our Soldiers comes from the strength of their 
        Families.
    We are committed to:
  --Providing Soldiers and Families a Quality of Life that is 
        commensurate with their service.
  --Providing our Families a strong, supportive environment where they 
        can thrive.
  --Building a partnership with Army Families that enhances their 
        strength and resilience.
    We are committed to Improving Family Readiness by:
  --Standardizing and funding existing Family programs and services.
  --Increasing accessibility and quality of health care.
  --Improving Soldier and Family dousing.
  --Ensuring excellence in schools, youth services and child care.
  --Expanding education and employment opportunities for Family 
        members.

    ----------------------------------------------------------------

                                                 February 26, 2008.
    Our Nation has been at war for over six years. Our Army--Active, 
Guard and Reserve--has been a leader in this war and has been fully 
engaged in Iraq, Afghanistan, and defending the homeland. We also have 
provided support, most notably by the Army National Guard and Army 
Reserve, to civil authorities during domestic emergencies. Today, of 
the Nation's nearly one million Soldiers, almost 600,000 are serving on 
active duty and over 250,000 are deployed to nearly 80 countries 
worldwide.
    We live in a world where global terrorism and extremist ideologies 
threaten our safety and our freedom. As we look to the future, we 
believe the coming decades are likely to be ones of persistent 
conflict--protracted confrontation among state, non-state, and 
individual actors who use violence to achieve their political and 
ideological ends. In this era of persistent conflict, the Army will 
continue to have a central role in implementing our national security 
strategy.
    While the Army remains the best led, best trained, and best 
equipped Army in the world, it is out of balance. The combined effects 
of an operational tempo that provides insufficient recovery time for 
personnel, Families, and equipment, a focus on training for 
counterinsurgency operations to the exclusion of other capabilities, 
and Reserve Components assigned missions for which they were not 
originally intended nor adequately resourced, result in our readiness 
being consumed as fast as we can build it. Therefore, our top priority 
over the next several years is to restore balance through four 
imperatives: Sustain, Prepare, Reset, and Transform.
    The Army's strength is its Soldiers--and the Families and Army 
Civilians who support them. The quality of life we provide our Soldiers 
and their Families must be commensurate with their quality of service. 
We will ensure that our injured and wounded Warriors, and their 
Families, receive the care and support they need to reintegrate 
effectively into the Army or back into society. We never will forget 
our moral obligation to the Families who have lost a Soldier in service 
to our Nation.
    We are grateful for the support and resources we have received from 
the Secretary of Defense, the President, and Congress. To fight the 
wars in Afghanistan and Iraq, transform to meet the evolving challenges 
of the 21st century, and to regain our balance by 2011, the Army will 
require the full level of support requested in this year's base budget 
and Global War on Terror (GWOT) Request.

                                      George W. Casey, Jr.,
                       General, United States Army, Chief of Staff.
                                                Pete Geren,
                                             Secretary of the Army.

    ----------------------------------------------------------------

    ``The U.S. Army today is a battle-hardened force whose volunteer 
Soldiers have performed with courage, resourcefulness, and resilience 
in the most grueling conditions. They've done so under the unforgiving 
glare of the 24-hour news cycle that leaves little room for error, 
serving in an institution largely organized, trained, and equipped in a 
different era for a different kind of conflict. And they've done all 
this with a country, a government--and in some cases a defense 
department--that has not been placed on a war footing.''------Secretary 
of Defense, Honorable Robert M. Gates, October 10, 2007, AUSA Meeting

    ----------------------------------------------------------------

    The Army--Active, Guard and Reserve--exists to protect our Nation 
from our enemies, defend our vital national interests and provide 
support to civil authorities in response to domestic emergencies. Our 
mission is to provide ready forces and land force capabilities to the 
Combatant Commanders in support of the National Security Strategy, the 
National Defense Strategy, and the National Military Strategy.
    While ``what'' the Army does for the Nation is enduring, ``how'' we 
do it must adapt to meet the changing world security environment. We 
are in an era of persistent conflict which, when combined with our on-
going global engagements, requires us to rebalance our capabilities. We 
do this remembering that Soldiers, and the Families who support them, 
are the strength and centerpiece of the Army. And, while our Nation has 
many strengths, in time of war, America's Army is The Strength of the 
Nation.
                           strategic context
An Era of Persistent Conflict
    Persistent conflict and change characterize the strategic 
environment. We have looked at the future and expect a future of 
protracted confrontation among state, non-state, and individual actors 
who will use violence to achieve political, religious, and other 
ideological ends. We will confront highly adaptive and intelligent 
adversaries who will exploit technology, information, and cultural 
differences to threaten U.S. interests. Operations in the future will 
be executed in complex environments and will range from peace 
engagement, to counterinsurgency, to major combat operations. This era 
of persistent conflict will result in high demand for Army forces and 
capabilities.
Trends Creating the Conditions for Persistent Conflict
    The potential for cascading effects from combinations of events or 
crises arising from the trends described below compounds the risk and 
implications for the United States.
            Globalization and Technology
    Increased global connectivity and technological advances will 
continue to drive global prosperity--yet they also will underscore 
disparities, such as in standards of living, and provide the means to 
export terror and extremism around the world. Globalization accelerates 
the redistribution of wealth, prosperity, and power, expanding the 
``have'' and ``have not'' conditions that can foster conflict. The 
scale of this problem is evident in the projection that 2.8 billion 
people are expected to be living below the poverty line by 2025. While 
advances in technology are benefiting people all over the world, 
extremists are exploiting that same technology to manipulate 
perceptions, export terror, and recruit the people who feel 
disenfranchised or threatened by its effects.
            Radicalism
    Extremist ideologies and separatist movements will continue to have 
an anti-western and anti-U.S. orientation. Radical and religious 
extremist groups, separatists, and organizations that support them are 
attractive to those who feel victimized or threatened by the cultural 
and economic impacts of globalization. The threats posed by Sunni 
Salafist extremists, like Al-Qaeda, as well as Shia extremists with 
Iranian backing, represent a major strategic challenge.
            Population Growth
    The likelihood of instability will increase as populations of 
several less-developed countries will almost double in size by 2020--
most notably in Africa, the Middle East, and South and Southeast Asia. 
The ``youth bulge'' created by this growth will be vulnerable to 
antigovernment and radical ideologies and will threaten government 
stability. This situation will be especially true in urban areas in 
which populations have more than doubled over the last 50 years.
    By 2025, urban areas with concentrations of poverty will contain 
almost 60 percent of the world's population.
            Resource Competition
    Competition for water, energy, goods, services, and food to meet 
the needs of growing populations will increase the potential for 
conflict. Demand for water is projected to double every 20 years. By 
2015, 40 percent of the world's population will live in ``water-
stressed'' countries. By 2025, global energy demands are expected to 
increase by 40 percent, threatening supplies to poor and developing 
nations.
            Climate Change and Natural Disasters
    Climate change and other projected trends will compound already 
difficult conditions in many developing countries. These trends will 
increase the likelihood of humanitarian crises, the potential for 
epidemic diseases, and regionally destabilizing population migrations. 
Desertification is occurring at nearly 50,000-70,000 square miles per 
year. Today more than 15 million people are dying annually from 
communicable diseases. The number of people dying each year could grow 
exponentially with increases in population density and natural 
disasters.
            Proliferation of Weapons of Mass Destruction
    The diffusion and increasing availability of technology increases 
the potential of catastrophic nuclear, biological, and chemical 
attacks. Many of the more than 1,100 terrorist groups and organizations 
are actively seeking weapons of mass destruction.
            Safe Havens
    States that are unable or unwilling to exercise control within 
their borders create the potential for global and regional groups to 
organize and export terror. Territories under the control of renegade 
elements or separatist factions will challenge central government 
authority, potentially creating a base from which to launch broader 
security threats. The trends that fuel persistent conflict characterize 
the strategic environment now and into the future and will require 
integration of all elements of our national power (diplomatic, 
informational, economic, and military) to achieve our national 
objectives. The implication for the Army is the need to be modernized, 
expeditionary and campaign capable, and prepared to operate across the 
full spectrum of conflict.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Challenges of Providing Forces with the Right Capabilities
    The Army recruits, organizes, trains, and equips Soldiers who 
operate as members of Joint, interagency, and multi-national teams. The 
Army also provides logistics and other support to enable our Joint and 
interagency partners to accomplish their missions, as well as support 
civil authorities in times of national emergencies. Responding to the 
strategic environment and the national security strategy that flows 
from it, we are building an expeditionary and campaign quality Army. 
Our expeditionary Army is capable of deploying rapidly into any 
operational environment, conducting operations with modular forces 
anywhere in the world, and sustaining operations as long as necessary 
to accomplish the mission. To fulfill the requirements of today's 
missions, including the defense of the homeland and support to civil 
authorities, approximately 591,000 Soldiers are on active duty 
(currently 518,000 Active Component, 52,000 Army National Guard, and 
21,000 Army Reserve). Forty-two percent (251,000) of our Soldiers are 
deployed or forward-stationed in 80 countries around the world. 
Additionally, more than 237,000 Army Civilians are performing a variety 
of missions vital to America's national defense. Of these, more than 
4,500 are forward deployed in support of our Soldiers.
    Our current focus is on preparing forces and building readiness for 
counterinsurgency operations in Iraq and Afghanistan. Despite this 
current and critical mission, the Army also must be ready to provide 
the Combatant Commanders with the forces and capabilities they need for 
operations anywhere around the world, ranging from peace-time military 
engagement to major combat operations. Examples of Army capabilities 
and recent or ongoing operations other than combat include the 
following:
  --Supporting the defense of South Korea, Japan, and many other 
        friends, allies, and partners.
  --Conducting peacekeeping operations in the Sinai Peninsula and the 
        Balkans.
  --Conducting multi-national exercises that reflect our longstanding 
        commitments to alliances.
  --Continuing engagements with foreign militaries to build 
        partnerships and preserve coalitions by training and advising 
        their military forces.
  --Participating, most notably by the Army National Guard, in securing 
        our borders and conducting operations to counter the flow of 
        illegal drugs.
  --Supporting civil authorities in responding to domestic emergencies, 
        including natural disasters and threats at home and abroad.
  --Supporting interagency and multi-national partnerships with 
        technical expertise, providing critical support after natural 
        disasters, and promoting regional stability.
  --Supporting operations to protect against weapons of mass 
        destruction and block their proliferation.
    It is vital that our Army ensures that units and Soldiers have the 
right capabilities to accomplish the wide variety of operations that we 
will conduct in the 21st century. Continuous modernization is the key 
to enhancing our capabilities and maintaining a technological advantage 
over any enemy we face. We never want to send our Soldiers into a fair 
fight.
    Future Combat Systems (FCS) are the core of our modernization 
effort and will provide our Soldiers an unparalleled understanding of 
their operational environment, increased precision and lethality, and 
enhanced survivability. These improved capabilities cannot be achieved 
by upgrading current vehicles and systems. FCS will use a combination 
of new manned and unmanned air and ground vehicles, connected by robust 
networks, to allow Soldiers to operate more effectively in the complex 
threat environments of the 21st century. Maintaining our technological 
edge over potential adversaries, providing better protection, and 
giving our Soldiers significantly improved capabilities to accomplish 
their mission are the reasons for FCS. FCS capabilities currently are 
being tested at Fort Bliss, Texas. They are proving themselves valuable 
in the current fight and are being fielded to our Soldiers in Iraq. FCS 
and their capabilities will continue to be integrated into the force 
over the next 20 years.
         two critical challenges: restoring balance and funding
An Army Out of Balance
    Today's Army is out of balance. The current demand for our forces 
in Iraq and Afghanistan exceeds the sustainable supply and limits our 
ability to provide ready forces for other contingencies. While our 
Reserve Components (RC) are performing magnificently, many RC units 
have found themselves assigned missions for which they were not 
originally intended nor adequately resourced. Current operational 
requirements for forces and insufficient time between deployments 
require a focus on counterinsurgency training and equipping to the 
detriment of preparedness for the full range of military missions.
    We are unable to provide a sustainable tempo of deployments for our 
Soldiers and Families. Soldiers, Families, support systems, and 
equipment are stretched and stressed by the demands of lengthy and 
repeated deployments, with insufficient recovery time. Equipment used 
repeatedly in harsh environments is wearing out more rapidly than 
programmed. Army support systems, designed for the pre-9/11 peacetime 
Army, are straining under the accumulation of stress from six years at 
war. Overall, our readiness is being consumed as fast as we build it. 
If unaddressed, this lack of balance poses a significant risk to the 
All-Volunteer Force and degrades the Army's ability to make a timely 
response to other contingencies.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Restoring Balance
    We are committed to restoring balance to preserve our All-Volunteer 
Force, restore necessary depth and breadth to Army capabilities, and 
build essential capacity for the future. Our plan will mitigate near-
term risk and restore balance by 2011 through four imperatives: 
Sustain, Prepare, Reset and Transform.
            Sustain
    To sustain our Soldiers, Families, and Army Civilians in an era of 
persistent conflict we must maintain the quality and viability of the 
All-Volunteer Force and the many capabilities it provides to the 
Nation. Sustain ensures our Soldiers and their Families have the 
quality of life they deserve and that we recruit and sustain a high 
quality force.
    Goals for Sustain:
  --Offer dynamic incentives that attract quality recruits to meet our 
        recruiting objectives for 2008 and beyond.
  --Provide improved quality of life and enhanced incentives to meet 
        our retention objectives for 2008 and beyond.
  --Continue to improve the quality of life for Army Families by 
        implementing the Army Family Covenant and other programs that: 
        standardize services, increase the accessibility and quality of 
        health care, improve housing and installation facilities, 
        provide excellence in schools and youth services, and expand 
        spousal education and employment opportunities.
  --Continue to improve care for Wounded Warriors and Warriors in 
        Transition through a patient-centered health care system, 
        Soldier and Family Assistance Centers, and improved Warrior 
        Transition Unit facilities.
  --Continue to support Families of our fallen with sustained 
        assistance that honors the service of their Soldiers.
            Prepare
    To prepare our Solders, units, and equipment we must maintain a 
high level of readiness for the current operational environments, 
especially in Iraq and Afghanistan.
    Goals for Prepare:
  --Continue to adapt and enhance the rigor of institutional, 
        individual, and operational training to enable Soldiers to 
        succeed in complex 21st century security environments.
  --Train Soldiers and units to conduct full spectrum operations with 
        improved training ranges to operate as part of a Joint, 
        interagency, or multinational force.
  --Provide Soldiers the best equipment through the Rapid Fielding 
        Initiative, the Rapid Equipping Force, and modernization 
        efforts.
  --Partner with private industry to rapidly develop and field 
        equipment needed on today's battlefield.
  --Continue to improve the Army Force Generation (ARFORGEN) process 
        which increases the readiness of the operating force over time 
        by generating recurring periods of availability of trained, 
        ready, and cohesive units.
            Reset
    To reset our force we must prepare our Soldiers, units, and 
equipment for future deployments and other contingencies.
    Goals for Reset:
  --Develop an Army-wide reset program that repairs, replaces, and 
        recapitalizes equipment that our Soldiers need.
  --Retrain our Soldiers to accomplish the full spectrum of missions 
        they will be expected to accomplish.
  --Revitalize our Soldiers and Families through implementation and 
        full resourcing of the Soldier Family Action Plan (SFAP) and 
        our warrior care and transition programs.
            Transform
    To transform our force, we must continuously improve our ability to 
meet the needs of the Combatant Commanders in a changing security 
environment.
    Goals for Transform:
  --Help balance our force and increase capacity to provide sufficient 
        forces for the full range and duration of current operations 
        and future contingencies by growing as quickly as possible.
  --Upgrade and modernize to remain an agile and globally responsive 
        force with Future Combat Systems (FCS) as the core of our 
        modernization effort.
  --Continue organizational change through modularity and rebalancing 
        to become more deployable, tailorable, and versatile.
  --Improve expeditionary contracting and financial and management 
        controls.
  --Continue to adapt institutions and the processes, policies, and 
        procedures, including business practices, to more effectively 
        and efficiently support an expeditionary Army at war.
  --Complete the transition of the RC to an operational reserve and 
        change the way we train, equip, resource, and mobilize RC 
        units.
  --Integrate Grow the Army initiative, Base Realignment and Closure 
        (BRAC), Global Defense Posture Realignment, and the operation 
        of installations and facilities to increase readiness, improve 
        efficiency, and improve the quality of life for our Soldiers, 
        Families, and Army Civilians.
  --Develop agile and adaptive leaders who can operate effectively in 
        Joint, interagency, intergovernmental, and multi-national 
        environments.
Compelling Needs for Sustain, Prepare, Reset, and Transform
    To achieve balance through the four imperatives, the Army will 
require sustained, timely, and predictable base budget and GWOT 
funding. The Armys compelling needs for fiscal year 2009 are:
    Support and Fund:
  --Recruiting and retention incentives and benefits to enable Active 
        and Reserve Components to meet end-strength objectives and 
        achieve Army standards for recruit quality.
  --Quality of life programs to sustain our Soldiers and Army Civilians 
        commitment to serve and the continued support of our Army 
        Families.
  --Programs to help our wounded, ill, and injured Warriors in 
        Transition to return to duty or to civilian life.
  --BRAC and military construction to execute the Army's global 
        repositioning plan.
  --Operations and maintenance for air and ground operations, depot 
        maintenance, base operations, and space and missile defense 
        capabilities.
  --Leader training and development to make Soldiers culturally astute 
        and better able to integrate and complement the other elements 
        of national power (diplomatic, informational, and economic).
  --Efforts to develop technical and procedural solutions to defeat the 
        threat of improvised explosive devices.
  --The Rapid Equipping Force (REF).
  --Equipment repair, replacement, and recapitalization programs.
  --Retraining Soldiers to execute their new and future missions.
  --Programs to revitalize our Soldiers and Families as they 
        reintegrate after deployments.
  --End-strength growth of approximately 74,000 by 2010.
  --Army modernization programs including Future Combat Systems, 
        aviation, Patriot PAC-3, LandWarNet, intelligence, logistics 
        automation, and other advanced technologies.
  --Planned modular transformations in 2009--two Brigade Combat Teams 
        and 13 support brigades.
  --Transformation of the Reserve Components to an operational reserve.

    ----------------------------------------------------------------

    ``America's ground forces have borne the brunt of underfunding in 
the past and the bulk of the costs--both human and material--of the 
wars of the present. By one count, investment in Army equipment and 
other essentials was underfunded by more than $50 billion before we 
invaded Iraq. By another estimate, the Army's share of total defense 
investments between 1990 and 2005 was about 15 percent. So resources 
are needed not only to recoup from the losses of war, but to make up 
for the shortfalls of the past and to invest in the capabilities of the 
future.''------Secretary of the Defense, Honorable Robert M. Gates, 
October 10, 2007, AUSA Meeting

    ----------------------------------------------------------------

Funding Challenges
    Recruiting and retaining the most combat-experienced Army in our 
Nation's history require predictable and sustained funding. Sustaining 
this high-quality and professional All-Volunteer Force will not be 
possible without investing in and supporting our quality of life 
efforts and providing competitive pay and benefits. As a manpower-
intensive organization, we will continue to spend the bulk of our funds 
to sustain people and maintain vital infrastructure, but we also must 
maintain investment in equipment and technology required for future 
readiness.
    To support our Soldiers, the centerpiece of the Army, we must 
rebuild and recapitalize our equipment including vehicles and weapons 
systems, maintain readiness for current operational demands, and build 
readiness for future challenges. It takes years beyond the end of 
hostilities to complete rebuilding and recapitalizing equipment. The 
fact that the number of vehicles and weapon systems currently in Army 
depots are sufficient to equip five Brigade Combat Teams and one Combat 
Aviation Brigade demonstrates the importance of timely recapitalization 
and reconditioning.
The Fiscal Year 2009 President's Budget
    The fiscal year 2009 President s Budget requests $140.7 billion for 
the Army. This request and the amounts in the Global War on Terror 
(GWOT) Request are necessary to support current operations, fight the 
wars in Iraq and Afghanistan, sustain the All-Volunteer Force, and 
prepare for future threats to the Nation. This year the President 
approved accelerating the end-strength of the Army's Active Component 
to 547,000 and the Army National Guard to 358,200 by 2010.
    The Army Reserve will increase in size to 206,000 by 2013. This 
most significant increase in the fiscal year 2009 budget is the result 
of permanent end-strength increases of 44,300 Soldiers in two 
components--43,000 in the Active Component and over 1,300 in the Army 
National Guard. The Army s fiscal year 2009 budget includes $15.1 
billion for all the costs associated with Grow the Army, which is an 
increase of $7.4 billion over the costs of this initiative in fiscal 
year 2008. This growth will enhance combat capabilities, help meet 
global force demand, and reduce stress on deployable personnel. Amounts 
requested by major appropriation category in the fiscal year 2009 
President s Budget as well as the change from the amounts enacted in 
fiscal year 2008 are:
            Military Personnel
    The fiscal year 2009 budget requests $51.8 billion, a $5.5 billion 
increase from fiscal year 2008. This includes $4 billion for Grow the 
Army, an increase of $3.4 billion over fiscal year 2008. This amount 
also funds pay, benefits, and associated personnel costs for 1,090,000 
Soldiers: 532,400 Active, 352,600 Army National Guard, and 205,000 Army 
Reserve. The GWOT Request will fund special pays and incentives and the 
mobilization of Reserve Component Soldiers.
            Operation and Maintenance
    The fiscal year 2009 budget requests $40.2 billion, a $3.6 billion 
increase from fiscal year 2008. This includes $2.6 billion for Grow the 
Army, an increase of $1.9 billion from fiscal year 2008. The increase 
funds training and sustainment of Army forces and includes the 
maintenance of equipment and facilities. The GWOT Request will fund the 
day-to-day cost of the war, training to prepare units for deployment, 
and the reset of forces returning from deployment.
            Procurement
    The fiscal year 2009 budget requests $24.6 billion, a $2 billion 
increase from fiscal year 2008. This includes $4.2 billion for Grow the 
Army, an increase of $100 million from fiscal year 2008. This increase 
continues procurement of weapons systems for the Army to include the 
Non-Line of Sight Cannon, an FCS-designed system. The GWOT Request will 
fund procurement of weapon systems to improve force readiness and 
replace battle losses and the reset of forces returning from 
deployment.
            Research, Development, Test, and Evaluation
    The fiscal year 2009 budget requests $10.5 billion, approximately 
the same amount requested last year, but a $1.5 billion decrease in the 
amount appropriated in fiscal year 2008. The fiscal year 2009 request 
reflects a $100 million decrease to the FCS Research, Development, 
Test, and Evaluation as the programs transition to procurement.
            Construction, Base Realignment and Closure (BRAC), and Army 
                    Family Housing
    The fiscal year 2009 budget requests $11.4 billion, a $1.8 billion 
increase from fiscal year 2008. This includes $4.3 billion for Grow the 
Army, an increase of $1.9 billion from fiscal year 2008. The increase 
funds the construction of facilities to support the growth and re-
stationing of Army Forces. The GWOT Request will fund construction in 
and around the Iraq and Afghanistan theaters of operation.
            Other Accounts
    The Army executes the Chemical Agents and Munitions Destruction 
Program. Funding for this account is stable at $1.6 billion in fiscal 
year 2008 and fiscal year 2009. The Army also has fiscal responsibility 
for the Iraq Security Forces Fund (ISFF), Afghanistan Security Forces 
Fund (ASFF), and Joint Improvised Explosive Device Defeat Organization 
(JIEDDO) appropriations. The Army budgets for recurring sustainment 
costs of JIEDDO with fiscal year 2009 at $500 million, an increase of 
$400 million from fiscal year 2008. The GWOT Request will fund JIEDDO 
initiatives. The ISFF and ASFF are funded entirely through the GWOT 
Request.
            Restoring Fiscal Balance
    Timely and full funding of the Army's fiscal year 2009 request of 
$140.7 billion will ensure the Army is ready to meet the needs of the 
Nation and continue the process of putting us back in balance. However, 
it is important to note that over the last six years, the Army has 
received increasing proportions of its funding through supplemental and 
GWOT appropriations. This recurring reliance on GWOT funds and a 
natural overlap between base and GWOT programs means that the Army's 
base budget does not fully cover the cost of both current and future 
readiness requirements. Because the GWOT planning horizon is compressed 
and the timing and amount of funding is unpredictable, some base 
programs would be at risk if supplemental funding is precipitously 
reduced or delayed. An orderly restoration of the balance between base 
and GWOT requirements is essential to maintain Army capabilities for 
future contingencies.
              stewardship, innovation, and accomplishments
    Our goals are to be good stewards of the resources we are provided 
by Congress and to free human and financial resources for higher 
priority operational needs. Through the use of innovations such as Lean 
Six Sigma we are improving support to our people while reducing waste 
and inefficiencies. Integral to achieving our goals is the development 
of an Army-wide cost-management culture in which leaders better 
understand the full cost of the capabilities they use and provide and 
incorporate cost considerations into their planning and decision-
making. This approach will enable us to achieve readiness and 
performance objectives more efficiently. Concurrently, we are 
strengthening our financial and management controls to improve 
contracting in expeditionary operations and ensure full compliance with 
the law and regulations. Our goal to improve long-term sustainability 
will be achieved through effective stewardship of human, financial, and 
natural resources. Some examples of our ongoing initiatives include:
  --Adjusting our national and global footprint to improve efficiency 
        and sustainability.
  --Transforming installations, depots, arsenals, and the information 
        network that connects them to become more effective, energy 
        efficient, and environmentally conscious.
  --Transforming the Army's training, structure, systems, and processes 
        to better sustain and prepare the force.
  --Adapting our activities to protect the environment.
    Our accomplishments over the past year further illustrate our 
commitment to improving efficiency and effectiveness throughout the 
Army.

    ----------------------------------------------------------------

                          Army Accomplishments
    Initiated the Army Medical Action Plan to improve medical care for 
our Wounded Warriors.
    Initiated the Soldier Family Action Plan bringing to life the Army 
Family Covenant.
    Initiated Soldier Family Assistance Centers throughout the Army to 
provide a single point of entry for Families and Wounded Warriors for 
health-care and related issues.
    Recognized with the prestigious Malcolm Baldrige Award; the Army 
Armament, Research and Development Engineering Center is the only 
organization in the federal government to have received this honor.
    Recognized for world-class excellence in manufacturing, the Army 
Materiel Command's depots and arsenals earned 12 Shingo public sector 
awards.
    Formed the Army Contracting Task Force to review current 
contracting operations and then immediately began implementing 
improvements.
    Converted approximately 10,000 military positions to civilian 
positions through the end of fiscal year 2007.
    Privatized more than 4,000 homes, bringing the total to over 75,000 
homes that are privately managed.
    Reduced energy consumption on our installations through fiscal year 
2007, achieving levels down 8.4 percent since 2003 and 28.9 percent 
since 1985.
    Reset 123,000 pieces of equipment, including 1,700 tracked 
vehicles, 15,000 wheeled vehicles, 550 aircraft, and 7,400 generators.
    Improved property accountability by providing Army-wide visibility 
of 3.4 billion items valued in excess of $230 billion.
    Destroyed over 15,000 tons of chemical agents contained in 1.8 
million chemical munitions and containers.
    Moved 10 million square feet of unit cargo in support of the GWOT 
and humanitarian aid missions.
    Merged the Joint Network Node program into the Warfighter 
Information Network-Tactical, resulting in better integration and cost 
savings.
    Began fielding Mine Resistant Ambush Protected (MRAP) vehicles to 
units in Iraq.
    Established the Army Evaluation Task Force and fielded first 
``spin-outs'' from FCS.
    Developed the Automated Reset Management Tool to provide a 
collaborative integrated tool for equipment reset planning and 
execution of the Army Force Generation process.
    Increased the rigor in training new Soldiers by requiring graduates 
of basic training to be Combat Lifesaver certified.
    Fielded Human Terrain Teams to assist commanders in gaining 
objective knowledge of a population's social groups, interests and 
beliefs.
    Employed National Guard Soldiers worldwide who aided in seizing 
nearly 4,000 vehicles, approximately a million pounds of marijuana, and 
roughly 600,000 pounds of cocaine.

    ----------------------------------------------------------------

    While we are proud of these accomplishments, we continue to 
identify and pursue additional ways to improve our stewardship, 
efficiency, and effectiveness throughout the Army.
                 preserving the strength of the nation
    The Army has been at war for over six years. Our Soldiers have 
demonstrated valor, endured countless hardships, and made great 
sacrifices. Over 3,000 Soldiers have died and many more have been 
wounded. The awards our Soldiers have earned reflect their 
accomplishments and bravery on the battlefield. Our Army Families have 
stood shoulder to shoulder with their Soldiers throughout these 
challenging times.
    Our examination of the current and future security environments 
confirms the need to restore balance and build readiness across all 
components of the Army as quickly as possible. Four imperatives--
Sustain, Prepare, Reset, and Transform--frame how the Army will restore 
balance by 2011 and begin to build readiness for the future. To 
accomplish our plan, we will continue to require timely and predictable 
resources and support.
    The Army will remain central to successfully achieving U.S. 
national security objectives, particularly in an era in which 
operations will be waged increasingly among people in urban 
environments. As the decisive ground component of the Joint and 
interagency teams, the Army operates across the full spectrum of 
conflict to protect our national interests and affirm our Nation's 
commitment to friends, allies, and partners worldwide. Our goal is a 
more agile, responsive, campaign quality and expeditionary Army with 
modern networks, surveillance sensors, precision weapons, and platforms 
that are lighter, less logistics dependent, and less manpower 
intensive.
    As we restore balance and build readiness for the future, we 
continue to invest in our centerpiece--Soldiers--and the Families that 
support them. Of the million Soldiers in uniform, over half of them are 
married, with more than 700,000 children. The Army Family Covenant, the 
Soldier Family Action Plan, and the Army Medical Action Plan are 
examples of our commitment to caring for our Soldiers, Families, and 
Army Civilians in these challenging times. With the continued support 
from the Secretary of Defense, the President, and Congress for our 
legislative and financial needs, the Army will restore balance, build 
the readiness necessary in an era of persistent conflict, and remain 
The Strength of the Nation.
                addendum a--reserve components readiness
    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) 1994 require the information in this addendum. Section 517 
requires a report relating to implementation of the pilot program for 
active component support of the Reserves under Section 414 of the NDAA 
1992 and 1993. Section 521 requires a detailed presentation concerning 
the Army National Guard (ARNG), including information relating to 
implementation of the ARNG Combat Readiness Reform Act of 1992 (Title 
XI of Public Law 102-484, referred to in this addendum as ANGCRRA). 
Section 521 reporting was later amended by Section 704 of NDAA 1996. 
U.S. Army Reserve information is also presented using Section 521 
reporting criteria.
Section 517(b)(2)(A)
    The promotion rate for officers considered for promotion from 
within the promotion zone who are serving as active component advisors 
to units of the Selected Reserve of the Ready Reserve (in accordance 
with that program) compared with the promotion rate for other officers 
considered for promotion from within the promotion zone in the same pay 
grade and the same competitive category, shown for all officers of the 
Army.

                              [In percent]
------------------------------------------------------------------------
                                                  AC in RC       Army
                                                     \1\     Average \2\
------------------------------------------------------------------------
Fiscal year 2006:
    Major......................................        93.9         96.5
    Lieutenant Colonel.........................        68.7         90.9
Fiscal year 2007:
    Major......................................       100.0         94.9
    Lieutenant Colonel.........................       100.0         91.0
------------------------------------------------------------------------
\1\ Active Component officers serving in Reserve Component assignments
  at time of consideration.
\2\ Active Component officers not serving in Reserve Component
  assignments at the time of consideration.

Section 517(b)(2)(B)
    The promotion rate for officers considered for promotion from below 
the promotion zone who are serving as Active Component advisors to 
units of the Selected Reserve of the Ready Reserve (in accordance with 
that program) compared in the same manner as specified in subparagraph 
(A) (the paragraph above).

                              [In percent]
------------------------------------------------------------------------
                                                  AC in RC       Army
                                                     \1\     Average \2\
------------------------------------------------------------------------
Fiscal year 2006:
    Major......................................         5.1          6.8
    Lieutenant Colonel.........................         3.2          8.1
Fiscal year 2007:
    Major......................................    \3\ 50.0          9.0
    Lieutenant Colonel.........................  ..........          9.7
------------------------------------------------------------------------
\1\ Below the zone Active Component officers serving in Reserve
  Component assignments at time of consideration.
\2\ Below-the-zone Active Component officers not serving in Reserve
  Component assignments at time of consideration.
\3\ One officer promoted below the zone out of two eligible for
  consideration.

Section 521(b)
    1. The number and percentage of officers with at least two years of 
active-duty before becoming a member of the Army National Guard or the 
U.S. Army Reserve Selected Reserve units:
  --ARNG officers: 20,811 or 55.5 percent.
  --Army Reserve officers: 4,968 or 7.9 percent.
    2. The number and percentage of enlisted personnel with at least 
two years of active-duty before becoming a member of the Army National 
Guard or the U.S. Army Reserve Selected Reserve units:
  --ARNG enlisted: 119,269 or 37.8 percent.
  --Army Reserve enlisted: 11,247 or 18.8 percent.
    3. The number of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active-duty service obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 111 2(a)(1) of ANGCRRA:
  --In fiscal year 2007, no graduates of a service academy were 
        released to the Selected Reserve to complete their obligation.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
  --In fiscal year 2007, no waivers were granted by the Secretary of 
        the Army.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps graduates and were released from 
active duty before the completion of their active-duty service 
obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
  --In fiscal year 2007, one distinguished Reserve Officers' Training 
        Corps (ROTC) graduate was released before completing his 
        active-duty service obligation.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver: In fiscal year 2007, one waiver was granted by the 
Secretary of the Army. The reason for the waiver was personal hardship 
(i.e., a child of the service member, born with a congenital heart 
defect, must be within 10-15 minutes from a major center specializing 
in pediatric cardiology for services as required).
    5. The number of officers who are graduates of the Reserve 
Officers' Training Corps program and who are performing their minimum 
period of obligated service in accordance with section 1112(b) of 
ANGCRRA by a combination of (a) two years of active duty, and (b) such 
additional period of service as is necessary to complete the remainder 
of such obligation served in the National Guard and, of those officers, 
the number for whom permission to perform their minimum period of 
obligated service in accordance with that section was granted during 
the preceding fiscal year:
  --In fiscal year 2007, no ROTC graduates were released early from 
        their active-duty obligation. Of this number, none are 
        completing the remainder of their obligation through service in 
        the ARNG, and none through service in the Army Reserve.
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported):
  --2,129 ARNG officers from units were recommended for position-
        vacancy promotion and promoted.
  --37 Army Reserve officers from units were recommended for position-
        vacancy promotion and promoted.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for non-commissioned 
officers and the reason for each such waiver:
  --In fiscal year 2007, no waivers were granted by the Secretary of 
        the Army.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and non-deployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. A narrative summary of information pertaining to the Army 
Reserve is also provided:
  --In fiscal year 2007, the ARNG had 61,700 Soldiers were considered 
        nondeployable because of incomplete initial entry training, 
        officer transition, medical issues, nonparticipation, or 
        restrictions on the use or possession of weapons and ammunition 
        under the Lautenburg Amendment. The National Guard Bureau (NGB) 
        maintains the detailed information.
  --In fiscal year 2007, the Army Reserve had 35,049 (AR) Soldiers who 
        were considered nonavailable for deployment for reasons 
        outlined in Army Regulation 220-1, Unit Status Reporting (e.g., 
        pending administrative/legal discharge or separation, medical 
        non-availability).
    9. The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard, Army Reserve data also reported:
  --The number of ARNG Soldiers discharged during fiscal year 2007 
        pursuant to section 1115(c)(1) of ANGCRRA for not completing 
        the minimum training required for deployment within 24 months 
        after entering the Army National Guard is 161 officers and 
        11,095 enlisted Soldiers from all U.S. states and territories. 
        The breakdown by each state is maintained by the NGB.
  --The number of Army Reserve Soldiers discharged during fiscal year 
        2007 for not completing the minimum training required for 
        deployment within 24 months after entering the Army Reserve is 
        15 officers and 436 enlisted Soldiers. Those Soldiers who have 
        not completed the required initial entry training within the 
        first 24 months are discharged from the Army Reserve under AR 
        135-178, Separation of Enlisted Personnel. Those officers who 
        have not completed a basic branch course within 36 months after 
        commissioning are separated under AR 135-175, Separation of 
        Officers.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary of the Army during the previous fiscal year under 
section 1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) 
of ANGCRRA described in paragraph (9), together with the reason for 
each waiver:
  --In fiscal year 2007, no waivers were granted by the Secretary of 
        the Army.
    11. The number of Army National Guard members, shown for each 
State, (and the number of AR members), who were screened during the 
preceding fiscal year to determine whether they meet minimum physical 
profile standards required for deployment and, of those members: (a) 
the number and percentage that did not meet minimum physical profile 
standards for deployment; and (b) the number and percentage who were 
transferred pursuant to section 1116 of ANGCRRA to the personnel 
accounting category described in paragraph (8):
    a. The number and percentage who did not meet minimum physical 
profile standards required for deployment:
  --In fiscal year 2007, 155,662 ARNG Soldiers underwent a physical. Of 
        these personnel, 5,606 or 3.6 percent were identified for 
        review due to a profile-limiting condition or failure to meet 
        retention standards.
  --In fiscal year 2007, 56,384 Army Reserve Soldiers underwent a 
        physical. Of these personnel 9,073 or 16 percent were 
        identified for review due to a profile-limiting condition or 
        failure to meet retention standards.
    b. The number and percentage that were transferred pursuant to 
section 1116 of ANGCRRA to the personnel accounting category described 
in paragraph (8).
  --In fiscal year 2007, 5,821 ARNG Soldiers were transferred from 
        deployable to nondeployable status for failing to meet medical 
        deployability standards. This number includes Soldiers 
        returning from a mobilization with a new medical condition and 
        reflects an increase in the use of electronic databases.
  --In fiscal year 2007, 839 Army Reserve Soldiers were considered 
        nonavailable for deployment for failing to meet medical 
        deployability standards. This is a decrease of 784 from the 
        previous fiscal year.
    12. The number of members and the percentage total membership of 
the Army National Guard shown for each State who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA:
  --Public Law 104-106 (NDAA 1996), Div A, Title VII, Section 704 (b), 
        February 10, 1996, repealed Section 1117 of ANGCRRA.
    13. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State who 
underwent a dental screening during the previous fiscal year as 
provided in section 1117 of ANGCRRA:
  --Public Law 104-106 (NDAA 1996), Div A, Title VII, Section 704 (b), 
        February 10, 1996, repealed Section 1117 of ANGCRRA.
    14. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State, over the 
age of 40 who underwent a full physical examination during the previous 
fiscal year for purposes of section 1117 of ANGCRRA:
  --Public Law 104-106 (NDAA 1996), Div A, Title VII, Section 704 (b), 
        February 10, 1996, repealed Section 1117 of ANGCRRA.
    15. The number of units of the Army National Guard that are 
scheduled for early deployment in the event of a mobilization, and of 
those units, the number that are dentally ready for deployment in 
accordance with section 1118 of ANGCRRA:
  --Public Law 104-106 (NDAA 1996), Div A, Title VII, Section 704 (b), 
        February 10, 1996, repealed Section 1118 of ANGCRRA.
    16. The estimated post-mobilization training time for each Army 
National Guard combat unit (and Army Reserve unit), and a description, 
displayed in broad categories and by State of what training would need 
to be accomplished for Army National Guard combat units (and AR units) 
in a post-mobilization period for purposes of section 1119 of ANGCRRA:
  --Information on the type of training required by units during post-
        mobilization is maintained by First United States Army. The 
        data are not captured and provided by the state.
  --ARNG units are striving to train in accordance with the Army Force 
        Generation (ARFORGEN) process in order to prepare for 
        operational missions and reduce post-mobilization training 
        time. The ARFORGEN process requires increasing resources as 
        necessary for maximum company-level training proficiency prior 
        to mobilization. This training generally consists of individual 
        warrior training tasks, weapons qualification and gunnery, 
        battle staff training, and maneuver training. This is followed 
        by theater-specific tasks and higher level collective training 
        to complete the predeployment requirements for the unit's 
        specific mission. The goal for post-mobilization training time 
        for a brigade-size organization is approximately 60 days.
  --Post-mobilization training time is contingent upon the amount of 
        certified pre-mobilization training conducted, the type of 
        unit, and its assigned mission. In order to reduce post-
        mobilization training time, the ARNG has developed programs and 
        products such as the ARNG Battle Command Training Capability, 
        the eXportable Combat Training Capability (XCTC), myriad 
        training devices and range complexes for our units. The 
        combination of programs and products, provide our units with 
        the capability to accomplish more pre-mobilization training and 
        reduce post-mobilization training time.
  --The Army Reserve Training Strategy (ARTS) envisions execution of 
        both the provisions of section 1119 as well as the Office of 
        the Secretary of Defense train-alert-deploy paradigm. 
        Specifically, the ARTS requires higher levels of pre-
        mobilization readiness through completion of increasingly 
        higher levels of training as units progress through the 
        ARFORGEN cycle. Thus, the initial focus on individual and 
        leader training migrates to low-level unit and battle staff, 
        culminating in multiechelon, combined-arms exercises in the 
        Ready year. The goal is to provide trained and ready combat 
        support/combat service support platoons and trained and 
        proficient battle staffs, battalion level and above, to the 
        mobilization station. Realization of this strategy is dependent 
        upon additional resources as it requires additional active 
        training days and support funds. The majority of the additional 
        training days are currently being resourced in the base budget, 
        but the additional operational tempo is funded via GWOT 
        Requests.
  --Per January 2007 direction from the Secretary of Defense (SECDEF) 
        Reserve Component unit mobilizations are now limited to 400-day 
        periods, including a 30-day post-mobilization leave. Perhaps 
        the most significant impact of this policy change is the 
        inclusion of post-mobilization training time in the 400-day 
        mobilization period. Thus, many training tasks previously 
        conducted during post-mobilization periods of three to six 
        months have been identified for pre-mobilization training, and 
        Army Reserve units are training to standard on as many of these 
        tasks as resources permit.
  --Post-mobilization training for Army Reserve units is directed and 
        managed by the First Army. First Army conducts the theater-
        specified training required and confirms the readiness of 
        mobilized Army Reserve units to deploy to overseas theaters. 
        ARFORGEN's Ready Year 2 (the year before mobilization) is 
        particularly critical to implementation of the ARTS and SECDEF 
        policies. During the Ready Year 2, Army Reserve units complete 
        collective pre-mobilization training in a 29-day period, 
        including training on many of the theater-identified tasks 
        formerly covered by First Army during post-mobilization. Timely 
        alert for mobilization--at least one year prior to 
        mobilization--is crucial.
  --Army goals for post-mobilization training for Army Reserve 
        headquarters and combat support/combat service support units 
        range from 30 to 60 days. Post-mobilization training conducted 
        by First Army typically consists of counterinsurgency 
        operations, counter-improvised-explosive-device training, 
        convoy live-fire exercises, theater orientation, rules of 
        engagement/escalation-of-force training, and completion of any 
        theater-specified training not completed during the pre-
        mobilization period. Typical post-mobilization periods for 
        various units are outlined below.

                     POST MOBILIZATION TRAINING DAYS
------------------------------------------------------------------------
                                    Current    Bridging \1\   Objective
------------------------------------------------------------------------
Military Police (Internet                  77            60           46
 Resettlement)..................
Engineer Battalion (Route                  75            60           44
 Clearance).....................
Military Police Company.........           86            60           46
Supply Company..................           60            45           33
Postal Company..................           95            30           22
Engineering Company                        60            45           35
 (Construction).................
Transportation Company (Heavy              60            45           33
 Equip Trans)...................
------------------------------------------------------------------------
\1\ The period roughly from Training Year 2008 through Training Year
  2010, when required training enablers (e.g., dollars, training days,
  training support structure, training facilities) are resourced and
  thus support the higher levels of pre-mobilization individual, leader,
  and collective training needed to maximize boots on ground/deployed
  time.

    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the Army Reserve):
  --During fiscal year 2007, the ARNG continued to synchronize the use 
        of existing and ongoing live, virtual, and constructive 
        training aids, devices, simulations and simulators (TADSS) 
        programs with the training requirements of the ARFORGEN 
        training model. By synchronizing the use of TADSS with 
        ARFORGEN, the ARNG continues to improve unit training 
        proficiency prior to mobilization.
  --To support the training requirements of M1A1 Abrams and M2A2 
        Bradley-equipped Brigade Combat Teams (BCTs), the ARNG 
        continued the fielding of the Advanced Bradley Full-Crew 
        Interactive Simulation Trainer, which provides full crew-
        simulations training for M2A2 units, Tabletop Full-fidelity 
        Trainers for the M2A2 and the Conduct of Fire Trainer XXI for 
        M1A1 and M2A2. When fully fielded, these devices, in addition 
        to the Abrams Full-Crew Interactive Simulation Trainer XXI, 
        will be the primary simulations trainers to meet the virtual 
        gunnery requirements of M1A1 and M2A2 crews.
  --In order to meet the virtual-maneuver training requirements in the 
        ARFORGEN process, M1A1 and M2A2 units use the Close-Combat 
        Tactical Trainer (CCTT) and the Rehosted Simulations Network 
        (SIMN ET) XXI, in addition to the Rehosted SIMNET CCTT Core. 
        The CCTT, SIMNET XXI, and SIMNET CCTT provide a mobile training 
        capability to our dispersed units.
  --In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations, the ARNG is fielding 
        the Virtual Convoy Operations Trainer (VCOT). The VCOT, through 
        the use of geospecific databases, provides commanders with a 
        unique and critical mission rehearsal tool. Currently, 32 VCOT 
        systems are positioned in the ARNG force to train units on the 
        fundamentals of convoy operations.
  --In order to meet basic and advanced rifle marksmanship 
        requirements, the ARNG is fielding the Engagement Skills 
        Trainer (EST 2000).
    This system is the Army s approved marksmanship-training device. 
The ARNG is also continuing use of its previously procured Fire Arms 
Training System (FATS) until EST 2000 fielding is complete. The EST 
2000 and FATS are also used to provide unit collective tactical 
training for dismounted Infantry, Special Operations Forces, Scouts, 
Engineer, and Military Police squads, as well as combat support and 
combat service support elements. These systems also support units 
conducting vital homeland defense missions.
  --The ARNG supplements its marksmanship-training strategy with the 
        Laser Marksmanship Training System (LMTS). The ARNG currently 
        has over 900 systems fielded down to the company level. The 
        LMTS is a laser-based training device that replicates the 
        firing of the Soldier's weapon without live ammunition. It is 
        utilized for developing and sustaining marksmanship skills, 
        diagnosing and correcting marksmanship problems, and assessing 
        basic and advanced skills.
  --The ARNG has further developed its battle command training 
        capability through the three designated Battle Command Training 
        Centers (BCTCs) at Fort Leavenworth, Camp Dodge, and Fort 
        Indiantown Gap, and the Distributed Battle Simulation Program 
        (DBSP). BCTCs provide the backbone of the program as collective 
        hubs in the battle command training strategy. The DBSP provides 
        Commanders assistance from Commander s Operational Training 
        Assistants, TADSS facilitators, and Technical Support Teams. 
        BCTCs and the DBSP collectively help units in the planning, 
        preparation, and execution of simulations-based battle staff 
        training that augments the Department of the Army-directed 
        Warfighter Exercises and greatly enhances battle staff and unit 
        proficiency.
  --In order to provide the critical culminating training event of 
        ARFORGEN, the ARNG has implemented the XCTC. The XCTC program 
        provides the method to certify that ARNG combat units have 
        achieved company-level maneuver proficiency prior to 
        mobilization. The XCTC incorporates the use of advanced live, 
        virtual, and constructive training technologies to replicate 
        the training experience until now only found at one of the 
        Army's Combat Training Centers. The centerpiece of the XCTC is 
        the Deployable Force-on-Force Instrumented Range System 
        (DFIRST). DFIRST utilizes training technologies that allow for 
        full instrumentation of the training area from major combat 
        systems down to the individual Soldier, role player, and 
        civilian on the battlefield.
  --The most important part of every training exercise is the After-
        Action Review (AAR). By full instrumentation of the units, 
        Soldiers, and training areas, units receive an AAR complete 
        with two-dimensional, three-dimensional, and video playback of 
        the actual training exercise. This allows Commanders and 
        Soldiers to see what occurred during the training exercise from 
        a different perspective, further enhancing the training 
        experience.
  --The Army Reserve continues to leverage--to extent resources 
        permit--TADSS into its training program. Implementation of Army 
        Campaign Plan Decision Point 72 continues with establishment of 
        the 75th Battle Command Training Division (BCTD) (Provisional). 
        This division, with five battle command training brigades, 
        employs legacy constructive simulations to provide battle 
        command and staff training to Army Reserve and Army National 
        Guard battalion and brigade commanders and staffs during pre-
        mobilization and post-mobilization. The concept plan as well as 
        requirements for supporting Army battle command systems and 
        simulations drivers for the 75th BCTD is pending Headquarters 
        Department of the Army (HQDA) approval.
  --The Army Reserve continues to partner with the Program Executive 
        Office, Simulations, Training and Instrumentation; Training and 
        Doctrine Command agencies; and HQDA to define TADSS 
        requirements for combat support and combat service support 
        units. During fiscal year 2007 the Army Reserve refined 
        concepts for the integration of live, virtual, and constructive 
        environments to train Soldiers and units. Most notably, during 
        the Pacific Warrior exercise in July 2007, the Army Reserve 
        attempted to integrate live and constructive environments as it 
        trained senior battle staffs in both constructive and live 
        environments while lower echelon units conducted platoon lanes. 
        The distinction between live and constructive was apparent to 
        the senior battle staff managing exercise play. The lack of key 
        TADSS enablers was identified in concept plans (e.g., 75th 
        BCTD, Army Reserve Operations Groups) awaiting HQDA approval. 
        Upon approval and subsequent fielding of the required TADSS, 
        this gap will be filled. The 75th BCTD is on the Entity-level 
        Resolution Federation (ERF) fielding plan. The ERF provides a 
        high-resolution (e.g., individual Soldier-level fidelity 
        aggregated to unit resolutions) joint constructive battle staff 
        training simulation.
  --The LMTS and EST 2000 remain essential elements of Army Reserve 
        marksmanship training. LMTS procurement continues, and 
        distribution throughout the Army Reserve force continues to 
        increase. The LMTS has also been adapted to support convoy 
        operations training. In either individual premarksmanship 
        training or convoy modes, the system allows the Soldier to use 
        an assigned weapon, as well as crew-served weapons, in a 
        simulation/training mode. EST 2000 systems have been fielded to 
        many Army Reserve Engineer and Military Police organizations to 
        enable full use of its training capabilities by units with high 
        densities of crew-served weapons their at home stations.
  --The Army Reserve also has a number of low-density simulators it 
        employs to reduce expensive ``live'' time for unique combat 
        service support equipment. For example, Army Reserve watercraft 
        units train on the Maritime Integrated Training System (MITS), 
        a bridge simulator that not only trains vessel captains but the 
        entire crew of Army watercraft. In 2007 the Army Reserve 
        invested in communications infrastructure so that the MITS at 
        Mare Island, California, can communicate and interact with 
        another Army MITS at Fort Eustis, Virginia. This will provide 
        the capability to conduct distributed multiboat collective 
        training among all the simulators. Of note, the MITS is also 
        used by U.S. Navy, U.S. Coast Guard, and harbor management 
        agencies. Other simulators include locomotive simulators used 
        by Army Reserve railroad units and a barge derrick simulator 
        for floating watercraft maintenance units. Other simulator 
        requirements have been and are being identified in requirements 
        documents.
  --To further the use of simulations and simulators, the Army Reserve 
        hosted a Functional Area 57 (Simulations Operations Officer) 
        course in Birmingham, Alabama, for 26 officers of the 4th 
        Brigade, 75th BCTD. Conducted by HQDA cadre in August and 
        September 2007, the course was a proof-of-principle effort to 
        assess the viability of exporting the resident course from Fort 
        Belvoir to Army Reserve home stations. The Army Reserve intends 
        to continue off-site delivery to the other four brigades of the 
        75th Division as well as the three Operations Groups while 
        continuing to use resident school quotas to meet formal 
        schooling requirements. Having a qualified cadre of schooled 
        training supporters is the foundation of the use of simulations 
        and simulators, as well as the authoring of requirements 
        documents conducive to the procurement of simulators and 
        simulations to meet combat support and combat service support 
        needs.
  --The Army Reserve recommendation for a low overhead driver/staff 
        trainer for brigade-battalion combat support and combat service 
        support Commanders was adopted as a Quick Win by the Total Army 
        Training Capability Study (collective training). The Army is 
        planning on procuring a solution in fiscal year 2008-fiscal 
        year 2009 to allow Commanders to conduct stressful and 
        doctrinally correct staff training at home station without the 
        need for a significant investment in facilities or support 
        technicians.
    18. Summary tables of unit readiness, shown for each State, (and 
for the Army Reserve), and drawn from the unit readiness rating system 
as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
    a. Explanations of the information: Readiness tables are 
classified. This information is maintained by the Department of the 
Army, G-3. The data is not captured and provided by state.
    b. Based on the information shown in the tables, the Secretary's 
overall assessment of the deployability of units of the ARNG (and Army 
Reserve), including a discussion of personnel deficiencies and 
equipment shortfalls in accordance with section 1121: Summary tables 
and overall assessments are classified. This information is maintained 
by the Department of the Army, G-3.
    19. Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of the Army National Guard (and Army 
Reserve) by inspectors general or other commissioned officers of the 
Regular Army under the provisions of Section 105 of Title 32, together 
with explanations of the information shown in the tables, and including 
display of:
    a. The number of such inspections.
    b. Identification of the entity conducting each inspection.
    c. The number of units inspected.
    d. The overall results of such inspections, including the inspector 
s determination for each inspected unit of whether the unit met 
deployability standards and, for those units not meeting deployability 
standards, the reasons for such failure and the status of corrective 
actions.
  --During fiscal year 2007, Inspectors General and other commissioned 
        officers of the Regular Army conducted 252 inspections of the 
        ARNG, including 672 ARNG units. The bulk of these inspections 
        (208) were executed by Regular Army officers assigned to the 
        respective states and territories as Inspectors General. Of the 
        remaining 44, 37 were conducted by First Army and the 
        Department of the Army Inspector General and the remaining 7 by 
        the U.S. Army Forces Command (FORSCOM); Training and Doctrine 
        Command (TRADOC); Communications-Electronics Command; and the 
        U.S. Army Audit Agency. Because the inspections conducted by 
        Inspectors General focused on findings and recommendations, the 
        units involved in these inspections were not provided with a 
        pass/fail rating. Results of such inspections may be requested 
        for release through the Inspector General of the Army.
  --Operational Readiness Evaluation data for the Force Support Package 
        and expanded separate brigades are unavailable, as inspections 
        there of were eliminated as requirements in 1997. Data 
        available under the Training Assessment Model (TAM) relates to 
        readiness levels and is generally not available in an 
        unclassified format. TAM data are maintained at the state level 
        and are available upon request from state level-training 
        readiness officials.
  --In accordance with AR 1-201, Army Inspection Policy, the U.S. Army 
        Reserve Command (USARC) conducts inspections of regional 
        readiness commands and direct support units within requirements 
        of the USARC Organizational Inspection Program (OIP). Per the 
        Army Regulation, OIPs at division levels and above, mainly 
        comprise staff inspections, staff assistance visits and 
        Inspectors General. Staff inspections are only one aspect by 
        which Commanding Generals can evaluate the readiness of their 
        commands. The Inspector General conducts inspections and 
        special assessments based on systemic issues and trends 
        analysis with emphasis on issues that could impede the 
        readiness of the Army Reserve.
  --The Chief, Army Reserve, directed the Inspector General to conduct 
        special assessments in fiscal year 2007 prompted by concerns 
        over systemic issues. One was the Special Assessment of 
        Property Accountability. It focused on policies and guidance 
        for, compliance with standards of, and adherence to the Command 
        Supply Discipline Program; the effectiveness of the 
        reconstitution process; and the impact of stay-behind-theater-
        provided equipment on property accountability, with emphasis on 
        transportation and communications equipment.
  --Another was the Special Assessment of the Organizational Inspection 
        Program, which evaluated the OIP to determine if Commanders 
        were using it to assess readiness and to reinforce goals and 
        standards withintheir commands. These assessments also 
        encompassed an annual regulatory review of compliance with and 
        effectiveness of, the Army Voting Assistance Program, a program 
        of special interest to the Department of the Army.
  --The Army Reserve is meeting regulatory requirements through a 
        combination of Battle-Focused Readiness Reviews (BFRRs) and 
        staff assistance visits, with the assistance visits conforming 
        to regulatory requirements of AR 1-201. The BFRR is the tool 
        used by major subordinate Commanders to provide the Army 
        Reserve Commanding General a status on resources and readiness 
        of their commands, and resolve systemic issues/trends in order 
        to achieve continuous improvements in readiness. The Army 
        Reserve conducted 16 BFRRs in fiscal year 2007. The staff 
        assistance visits were more oriented to a particular topic in 
        the staff proponent's area.
    20. A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the active-duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by State, for each such ARNG unit (and for 
the U.S. Army Reserve) by: (A) the assessment of the commander of that 
associated active-duty unit of the manpower, equipment, and training 
resource requirements of that National Guard (and Army Reserve) unit in 
accordance with section 1131(b)(3) of the ANGCRRA; and (B) the results 
of the validation by the commander of that associated active-duty unit 
of the compatibility of that National Guard (or U.S. Army Reserve) unit 
with active duty forces in accordance with section 1131 (b)(4) of 
ANGCRRA:
  --There are no longer ground combat active or reserve component 
        associations due to operational mission requirements and 
        deployment tempo.
  --As FORSCOM's executive agent, First Army and USARPAC (U.S. Army 
        Pacific) for Pacific based Reserve Component units, executes 
        the legislated active duty associate unit responsibilities 
        through both their pre-mobilization and post-mobilization 
        efforts with reserve component units. When reserve component 
        units are mobilized they are thoroughly assessed in terms of 
        manpower, equipment, and training initially by the appropriate 
        chain of command, and that assessment is approved by First Army 
        or USARPAC as part of the validation for unit deployment.
  --Validation of the compatibility of the reserve component units with 
        the active duty forces occurs through the mobilization 
        functions with the direct oversight of First Army, USARPAC and 
        FORSCOM at the Mobilization Centers.
  --The Army's Transformation from a division-centric to brigade-
        centric organization, execution of ARFORGEN, and acceleration 
        of modularity and rebalancing efforts in the ARNG and Army 
        Reserve, coupled with lack of available active ground combat 
        units to conduct annual assessment of reserve component units, 
        should obviate the reporting requirement stipulated in Title 
        10, U.S. Code, Section 10542, Army National Guard Combat 
        Readiness Annual Report.
    21. A specification of the active-duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for Fiscal Years 1992 and 1993 (10 U.S.C. 261 
note), shown (a) by State for the Army National Guard (and for the US 
Army Reserve), (b) by rank of officers, warrant officers, and enlisted 
members assigned, and (c) by unit or other organizational entity of 
assignment:
  --As of September 30, 2007, the Army had 3,251 active component 
        Soldiers assigned to Title XI positions. In fiscal year 2006, 
        the Army began reducing authorizations in accordance with the 
        National Defense Authorization Act 2005 (Public Law 108-767, 
        Section 515). Army G-1, and U.S. Army Human Resources Command 
        carefully manages the authorizations and fill of Title XI 
        positions. The data are not captured and provided by state.

               TITLE XI (FISCAL YEAR 2007) AUTHORIZATIONS
------------------------------------------------------------------------
                                 OFF        ENL         WO       TOTAL
------------------------------------------------------------------------
OA-22.......................  .........          2  .........          2
U.S. Army Reserve...........         25         83  .........        108
TRADOC......................         83         80  .........        163
FORSCOM.....................      1,155      2,225        121      3,501
ESGR........................  .........  .........  .........  .........
USARPAC.....................         30         54          1         85
                             -------------------------------------------
      TOTAL.................      1,293      2,444        122      3,859
------------------------------------------------------------------------

                     addendum b--information papers
    For more information about the topics below: www.army.mil/aps/08/
information_papers/information_papers.php
Sustain
Army Career Intern Program
Army Career Tracker
Army Community Services
Army Family Action Plan
Army Continuing Education System
Army Family Housing
Army Family Team Building Information
Army Integrated Family Support Network
Army Medical Action Plan
Army Referral Bonus Pilot Program
Army Reserve Child and Youth Services
Army Reserve Employer Relations
Army Reserve Voluntary Education Services
Army Reserve Voluntary Selective Continuation
Army Retention Program
Army Spouse Employment Partnership
Army Strong
Army Suicide Prevention Program
Army Transferability of GI Bill Benefits to Spouses Program
ARNG Active First
ARNG Education Support Center
ARNG Family Assistance Centers
ARNG Freedom Salute
ARNG GED Plus
ARNG Periodic Health Assessment
ARNG Post Deployment Health Reassessment
ARNG Recruit Sustainment Program
ARNG Recruiter Assistance Program
ARNG Yellow Ribbon Program
Better Opportunity for Single Soldiers
Child and Youth School Transition Services
Commissary and Exchange Quality Of Life
Community Based Health Care Organization
Defense Integrated Military Human Resource System
Deployment Cycle Support
Diversity
Equal Opportunity and Prevention of Sexual Harassment
Exceptional Family Member Program Respite Care
Family Advocacy Program
Family Readiness Support Assistant
Freedom Team Salute
Full Replacement Value and Families First
Job Swap Program
Medical and Dental Readiness
Military Family Life Consultants
Military One Source
Military to Civilian Conversions
Morale Welfare and Recreation
MyArmyLifeToo
National Security Personnel System
Officer Retention
Privatization of Army Lodging
Residential Communities Initialization
Sexual Assault Prevention
Soldier and Family Assistance Centers
Soldier and Family Readiness Board of Directors
Strong Bonds
U.S. Army Wounded Warrior Program
U.S. CENTCOM Rest and Recuperation Leave Program
Warrior in Transition
Wellness Assessment and Education
Prepare
Add-on Armor for Tactical Wheeled Vehicles
Army Asymmetric Warfare Group
Army Asymmetric Warfare Office
Army Combat Training Center Program
Army Distributed Learning Program
Army Initiatives to Improve Irregular Warfare Capability
Army National Guard Readiness Centers
Army Training Support System
ARNG Exportable Combat Training Capability
Basic Officer Leader Course
Biometrics
College of the American Soldier
Combating Weapons of Mass Destruction
Contractor-Acquired Government-Owned Equipment
Global Force Posture
Interceptor Body Armor
Live Virtual Constructive Integrating Architecture
Mine Resistant Ambush Protected Vehicles
Multi-Source Assessment and Feedback Program
Persistent Conflict
Property Accountability
Rapid Equipping Force
Rapid Fielding Initiative
Red Team Education and Training
Robotics
Sustainable Range Program
Unit Combined Arms Training Strategies
U.S. Army Combat Training Centers
Up-Armored High-Mobility Multipurpose Wheeled Vehicle
Warrior Tasks
Western Army National Guard Aviation Training Site
Reset
360-Degree Logistics Readiness
Army Equipping and Reuse Conference
Army Sustainability
Black Hawk Utility Helicopter
Building Army Prepositioned Stocks
CH-47 Medium Lift Helicopter
Depot Maintenance Initiatives
Equipment Reset Program
Life Cycle Management Initiative
Longbow Apache
Raven Small Unmanned Aircraft System
Retained Issue
Retrograde
Shadow Unmanned Aircraft System
War Reserve Secondary Items
Transform
Accelerate Army Growth
Active Component Reserve Component Rebalance
Armed Reconnaissance Helicopter
Army Distributed Learning Program
Army Force Protection Division Initiative
Army G-4 Lean Six Sigma
Army Integrated Logistics Architecture
Army Intelligence Transformation
Army Leader Development Program
Army Modernization Plan
Army Netcentric Data Strategy
Army Officer Education System
Army Power Projection Platform
Army Reserve Facility Management
ARNG Chemical, Biological, Radiological, Nuclear and High-Yield-
Explosive--Enhanced Response Forces
ARNG Civil Support Teams
ARNG Operational Support Airlift Agency
ARNG State Partnership Program
Barracks Modernization Program
Base Realignment and Closure Program
Battle Command as a Weapons System
Campaign Quality Force
Civil Works
Civilian Education System
Common Levels of Support
Common Logistics Operating Environment
Concept Development and Experimentation
CONUS Theater Signal Command
Cultural and Foreign Language Capabilities
Cyber Operations
Defense Support to Civil Authorities
Defense Support to Civil Authorities Special Events
Defense Support to Civil Defense Coordinating Officer
Digital Training Management System
Enhancing Joint Interdependence
Every Soldier is a Sensor/Human Terrain Teams
Expeditionary Capabilities
Expeditionary Contracting
Expeditionary Theater Opening
Flat Network Intelligence Access
Full Spectrum Operations
Intelligence Training
Interceptor Body Armor
Joint Knowledge Development and Distribution
Joint National Training Capability Activities
Joint Precision Airdrop System
Joint Tactical Radio System
Lakota
LandWarNet and the Global Information Grid
Logistics Automation
Major Acquisition Programs Future Combat System
MANPRINT
Medium Extended Air Defense System
Micro Electrical Mechanized Systems with RFID
Military Construction Transformation
Military Intelligence Capacity and Rebalance
Modular Force Conversion
Next Generation Wireless Communications
Non-Commissioned Officer Education System
Pandemic Influenza Preparation
Persistent Surveillance
Restructuring Army Aviation
Revitalizing Army Human Intelligence
Science and Technology
Single Army Logistics Enterprise
Spiral Technology and Capabilities
Stability Operations Capabilities
Transform
Warrior Unmanned Aircraft System
Warfighter Information Network-Tactical (WIN-T)
Other Important Information Papers Army Medical Action Program
Army Knowledge Online--DKO
Army Direct Ordering
Army Environmental Programs
Army Values
ARNG Agribusiness
ARNG Counterdrug
ARNG Environmental Programs
ARNG Fishing Program
ARNG Youth Challenge
Building Partnership Capacity
Civilian Corps Creed
CONUS Theater Signal Command
Energy Strategy
Fixed Regional Hub Nodes
Funds Control Module
General Fund Enterprise Business System
Institutional Training
Information Assurance and Network Security
Lean Six Sigma 2007
Organizational Clothing and Individual Equipment
Real Estate Disposal
Redeployment Process
Soldier as a System
Single DOIM and Army Processing Centers
Soldiers Creed
Streamline OCIE Processes
U.S. Army Combat Training Center Program
U.S. Army North
Warrior Ethos
Western Hemisphere Institute for Security Cooperation
                          addendum c--websites
    Army Business Transformation Knowledge Center: This site provides 
information on Army Business Transformation.
      http://www.army.mil/ArmyBTKC/index.htm
    Army Center Capabilities and Information Center (ARCIC): This site 
provides background on ARC IC.
      http://www.arcic.army.mil
    Army Logistics Transformation Agency: This site provides 
information on Army logistics transformation.
      http://www.lta.army.mil
    Army Medicine: This site provides information on Army medical 
programs.
      http://www.armymedicine.army.mil
    Army Modernization Plan: This site provides a detailed overview of 
the Army's organizational and materiel modernization efforts.
      http://www.army.mil/features/MODPlan/2006/
    Army National Guard: This site provides information about the Army 
National Guard.
      http://www.arng.army.mil
    Army Posture Statement: This site provides the web-based version of 
the Army Posture Statement which includes amplifying information not 
found in the print version.
      http://www.army.mil/aps
    Army Sustainability: This site provides information on Army 
sustainability efforts.
      http://www.sustainability.army.mil
    Army Training and Doctrine Command (TRADOC): This site provides 
background on TRADOC.
      http://www.tradoc.army.mil
    Army Website: This site is the most visited military website in the 
world, averaging about seven million visitors per month or 250 hits per 
second. It provides news, features, imagery, and references.
      http://www.army.mil
    Army Wounded Warrior Program: This site provides information on the 
Army's Wounded Warrior Program which provides support for severely 
wounded Soldiers and their Families.
      https://www.aw2.army.mil/
    Chief Information Officer, CIO/G-6: This site provides information 
on Army information operations.
      http://www.army.mil/ciog6/
    Deputy Chief of Staff for Intelligence, G-2: This site provides 
information on Army Intelligence initiatives.
      http://www.dami.army.pentagon.mil
    Deputy Chief of Staff for Logistics, G-4: This site provides 
information on Army logistics.
      http://www.hqda.army.mil/logweb/
    Deputy Chief of Staff for Operations, Plans, and Policy, G-3/5/7: 
This site provides information on Army operations, policies and plans.
      http://www.g357extranet.army.pentagon.mil/#
    Deputy Chief of Staff for Personnel, G-1: This site provides 
information on personnel issues.
      http://www.armyg1.army.mil
    Deputy Chief of Staff for Programs: This site provides information 
on materiel integration.
      http://www.g8.army.mil
    Future Combat Systems: This site provides information on the Future 
Combat Systems program.
      http://www.army.mil/fcs
    My ArmyLifeToo Web Portal: This site serves as an entry point to 
the Army Integrated Family Support Network (AIFSN).
      http://www.myarmylifetoo.com
    United States Army Reserve: Provides information about the Army 
Reserve.
      http://www.armyreserve.army.mil/usar/home
    Western Hemisphere Institute for Security Cooperation (WHINSEC): 
This site provides the history and overview of WHINSEC.
      https://www.infantry.army.mil/WHINSEC/
                addendum d--acronyms and initializations
    AC--Active Component
    ACOM--Army Command
    AMC--Army Materiel Command
    APOE--Aerial Port of Embarkation
    APS--Army Prepositioned Stocks
    ARFORGEN--Army Force Generation
    ARI--Army Research Institute
    ARNG--Army National Guard
    ASC--Army Sustainment Command
    ASCC--Army Service Component Command
    ASV--Armored Security Vehicle
    AW2--U.S. Army Wounded Warrior Program
    BCT--Brigade Combat Team
    BfSB--Battlefield Surveillance Brigade
    BOLC--Basic Officer Leader Course
    BRAC--Base Realignment and Closure
    BT--Business Transformation
    CBRN--Chemical, Biological, Radiological, and Nuclear
    CBRNE--Chemical, Biological, Radiological, Nuclear and High Yield 
Explosives
    CES--Civilian Education System
    CM--Consequence Management
    COIN--Counterinsurgency
    CPI--Continuous Process Improvement
    CS--Combat Support
    CSS--Combat Service Support
    CT--Counter Terrorist
    CTC--Combat Training Center
    CWMD--Combating Weapons of Mass Destruction
    DCGS-A--Distributed Common Ground System--Army
    DMDC--Defense Manpower Data Center
    DOD--Department of Defense
    ES2--Every Soldier a Sensor
    FCS--Future Combat Systems
    FTS--Full Time Support
    GBIAD--Ground Based Integrated Air Defense
    GCSC-A--Global Combat Service Support--Army
    GDP--Gross Domestic Product
    GDPR--Global Defense Posture Review
    GFEBS--General Fund Enterprise Business System
    GWOT--Global War on Terrorism
    HMMWV--High Mobility Multipurpose Wheeled Vehicle
    HSDG--High School Diploma Graduates
    HST--Home Station Training
    HUMINT--Human Intelligence
    IBA--Improved Body Armor
    IED--Improvised Explosive Device
    ISR--Intelligence, Surveillance, and Reconnaissance
    IT--Information Technology
    JIEDDO--Joint Improvised Explosive Device Defeat Organization
    JIOC-I--Joint Intelligence Operations Capability--Iraq
    JTF--Joint Task Force
    LMP--Logistics Modernization Program
    LSS--Lean Six Sigma
    METL--Mission Essential Task List
    MFO--Multinational Force and Observers
    MI--Military Intelligence
    NCO--Non-Commissioned Officer
    NDAA--National Defense Authorization Act
    OA&D--Organizational Analysis and Design
    OEF--Operation Enduring Freedom
    OIF--Operation Iraqi Freedom
    OPTEMPO--Operational Tempo
    O&M--Operations and Maintenance
    PLM+--Product Lifecycle Management Plus
    QDR--Quadrennial Defense Review
    RC--Reserve Component
    RCI--Residential Communities Initiative
    RDA--Research, Development, and Acquisition
    REF--Rapid Equipping Force
    RFI--Rapid Fielding Initiative
    SDDC--Surface Deployment and Distribution Command
    SIGINT--Signals Intelligence
    SMS--Strategic Management System
    TPFDD--Time Phased Force Deployment Data
    QOL--Quality of Life
    UAS--Unmanned Aerial Systems
    USAR--United States Army Reserve
    VA--Veterans Affairs
    WMD--Weapons of Mass Destruction

    Senator Inouye. And now, may I call upon General Casey?

               STATEMENT OF GENERAL GEORGE W. CASEY, JR.

    General Casey. Thank you, Mr. Chairman, Senator Stevens. 
Thank you. Very good. Thank you, Senator Inouye, Senator 
Stevens, members of the subcommittee.
    It is my first appearance here, and I do welcome the 
opportunity to speak with you today and to provide some context 
for this fiscal year 2009 budget that we're presenting to you 
today.
    Our country is in our seventh year at war, and your Army 
remains fully engaged around the world and at home. I believe, 
as the Secretary mentioned, that we are in and will be in a 
decade or so of what I call ``persistent conflict.'' And I 
define persistent conflict as a period of protracted 
confrontation among state, non-state, and individual actors who 
are increasingly willing to use violence to accomplish their 
political and ideological objectives.
    And as I look to the future, that is what I see for us, and 
that's the future that I believe that we as an Army and we as a 
Nation need to prepare for. Now, on top of that, as I look at 
the international security environment, I see some trends that 
will actually exacerbate and prolong this period of persistent 
conflict.
    For example, globalization. There is no question that 
globalization is having positive impacts around the world. But 
unfortunately, those positive impacts are unevenly distributed, 
and it's creating an environment of have and have-not states. 
And if you look primarily south of the equator--South America, 
Africa, Middle East, South Asia--you see what I mean. And what 
happens is that these have-nots states create fertile 
recruiting bases for global extremist groups.
    Technology is another double-edged sword. The same 
technology that is pushing knowledge to anyone in the world 
with a computer is being used by terrorists to export terror 
around the world.
    Demographics are going in the wrong direction. But, by some 
estimates, some of these developing countries are expected to 
double in population in the next 10 to 20 years, and some 
projections are that 60 percent of the world's populations are 
going to live in these sprawling cities in 10 or 20 years. That 
will create, again, breeding grounds for extremist recruitment.
    Two trends that worry me the most? Weapons of mass 
destruction. We know there's over 1,200 terrorist groups around 
the world. Most, if not all of them, are working hard to get 
weapons of mass destruction. And there's no question in my mind 
that if they get them they will intend to use them against a 
developed country.
    And the second thing that worries me the most are safe 
havens. Ungoverned space or states that allow terrorists to 
operate from their territory that can be used to plan and 
export terrorist operations, much like we saw in Afghanistan.
    So facing that future, and having been at war for 7 years, 
we believe that our Army must be versatile enough to adapt to 
the rapidly--rapidly to the unexpected circumstances that we'll 
face. And we are building, and have been building, an agile, 
campaign-capable, expeditionary Army that we believe can deal 
with these challenges.
    Now, as the Secretary said, the cumulative effects of 6-
plus years at war have put us out of balance. Let me just 
describe what I mean by that. Basically, the current demands on 
our forces exceed the sustainable supply. And we're consumed 
with meeting our current requirements, and as a result are 
unable to provide forces as rapidly as we would like for other 
things, and we're unable to do the things we know we need to do 
to sustain this magnificent all-volunteer force.
    Our reserve components are performing magnificently, but in 
an operational role for which they were neither organized nor 
resourced. The limited periods of time between deployments 
necessitate that we focus on counter insurgency training at the 
expense of training for the full spectrum of operations. Our 
soldiers, our families, our support systems, and our equipment 
are stretched by the demands of these repeated deployments. So, 
as the Secretary said, overall we're consuming our readiness 
just as fast as we can go.
    Now, I wrestled hard to find the right words to describe 
the state of the Army. Because it isn't broken, it isn't 
hollow, it's a hugely competent, professional, and combat-
seasoned force. But, as I think we all acknowledge, we are not 
where we need to be. Now, with your help, Mr. Chairman, we have 
a plan to restore balance and preserve this all-volunteer force 
and restore the necessary breadth and depth to Army 
capabilities.
    And we've come up with four imperatives that we believe 
that we need to execute to put ourselves back in balance--
sustain, prepare, reset and transform. Let me just say a few 
words about each of them.
    First and foremost, we have to sustain our soldiers, 
families, and civilians. They are the heart and soul of this 
Army. And they must be supported in a way that recognizes the 
quality of their service. The Secretary mentioned some of the 
initiatives that we're taking, and these will continue with 
your support.
    Now, second, prepared. We cannot back away from our 
commitment to continue to prepare our soldiers for success in 
this current conflict and give them the tools that they need to 
be successful. They must have an asymmetric advantage over any 
enemy that they face.
    Third is reset. And reset is about returning our soldiers 
and their equipment to appropriate conditions for future 
deployments and contingencies. In fiscal year 2007, you 
provided us the resources to properly reset the force. And, as 
a result, we've made significant strides in putting 
capabilities and systems into the force. But resources for 
reset are the difference between a hollow force and a versatile 
force for the future.
    And last, transform. Several of you mentioned--the chairman 
and the co-chairman mentioned--that even as we're working to 
put ourselves back in balance, we can't take our eyes off the 
future, and we thoroughly agree with that. We must continue to 
transform our Army into an agile campaign-quality expeditionary 
force for the 21st century.
    And for us, transformation is a holistic effort. It's 
adapting how we train, how we fight, how we modernize, how we 
develop leaders, and how we take care of our soldiers and 
families.
    To guide our transformation, we're releasing the first 
adaptation of our Basic Operations Doctrine since September 11, 
2001--Field Manual 3 (FM3) Operations. We expect this to guide 
our transformation and it describes--one, how we see the future 
security environment, and two, how we believe Army forces 
should operate for success in that environment. Let me just 
give you five key elements that are represented here in this 
manual.
    First, it describes the complex and multidimensional 
operational environment of the 21st century. An environment 
where we think war will increasingly be fought among the 
people.
    Now, second, this manual elevates stability operations to 
the level of offense and defense. And in the core of it is an 
operational concept called Full Spectrum Operations. Army 
formations apply offense, defense, and stability operations 
simultaneously to seize the initiative and achieve decisive 
results.
    Third, it describes a commander's role in battle command 
that is an intellectual process, more designed to solving 
developing solutions for the tough, complex problems our 
commanders will face, than a military decisionmaking process to 
prepare operations orders.
    Fourth, it emphasizes the importance of information 
superiority in modern conflict.
    And last, it acknowledges that our soldiers, even in this 
21st century environment, remain the centerpiece of our 
formations.
    So we believe this doctrine is a great starting point on 
which to build on the experience of the last 7 years and to 
shape our Army for the future. So that's our plan Senators--
sustain, prepare, reset, and transform.
    In the last 2 years, you have given us the resources to 
begin this process for putting the Army back in balance. The 
fiscal year 2009 budget, the war on terrorism supplemental that 
will accompany it, and the balance of the 2008 war on terrorism 
supplemental will allow that process to continue.
    We certainly appreciate your support. And I want to assure 
you that we have worked very hard to put the resources that you 
have given us here to good use. And let me just give you a 
couple of examples.
    First, we've made great strides through the Army Medical 
Action Plan in improving care to our wounded warriors.
    Second, we've initiated an Army Soldier Family Action Plan 
to improve the quality of support for our families.
    Third, we are over 60 percent through our conversion to 
modular organizations. This is the largest organizational 
transformation of the Army since World War II, and these 
formations that we're building are 21st century formations. 
I've seen the power of them on the ground in Baghdad.
    We're also over 60 percent complete a rebalancing of 
120,000 soldiers from skills we needed in the cold war to 
skills more relevant to the 21st century. We've reset 120,000 
pieces of equipment. We've privatized more than 4,000 homes 
just last year, giving us over 80,000 privatized homes for our 
soldiers and families. And the depots of our Army Materiel 
Command have won industry prizes for efficiency. They won 12 of 
what they call Shingo Awards from commercial industry for their 
efficiency.
    So, as you can see, we are not sitting still, and we are 
working hard to give the Nation the Army it needs for the 21st 
century.
    Now, let me just close here, Senators, with a story about 
quality, because I get--and I suspect will get today--questions 
on the quality of the Army. I was up in Alaska in December 
right before Christmas, and I had the occasion to present a 
Distinguished Service Cross to a sergeant. This was Sergeant 
Greg Williams.
    He was on a patrol with his Stryker in Baghdad in October 
2006. That patrol came into an ambush. And they were taken 
under fire from three different directions and with four 
explosively formed penetrator Improved Explosive Devices 
(IEDs). And those are the armor piercing IEDs that can be very, 
very lethal to our forces. They all struck simultaneously.
    He was knocked out, eardrum burst. He awoke to find his 
uniform on fire, and his Stryker on fire. He put his uniform 
out. His first instincts? Grab the aid bag and start treating 
my fellow soldiers. He did that. He didn't realize that his 
lieutenant was still in the burning vehicle. He ran back in the 
burning vehicle, dragged the lieutenant to safety, still under 
fire.
    He was returning fire when he realized that the .50 caliber 
machine gun on the Stryker was not being manned. That was the 
most potent weapon in the squad. He ran back in the burning 
vehicle which, oh by the way, still contained about 30 pounds 
of TNT and detonating cord. He got on the .50 caliber, brought 
it to bear, broke the ambush, and the squad escaped.
    Now, that's the type of men and women that we have in the 
Army today. And you can be extremely proud of the job they're 
doing around the world, while our success in the future will 
require more than the courage and valor of our soldiers to 
ensure that we can continue to fight and win the Nation's wars 
in an era of persistent conflict.
    It will require recognition by national leaders, like 
yourselves, of the challenges that America faces in the years 
ahead. And it will require full, timely, and predictable 
funding to ensure that the Army is prepared to defeat those 
threats and to preserve our way of life.
    So thank you very much for your attention. And the 
Secretary and I will be very glad to take your questions.

                          CONTRACTOR PERSONNEL

    Senator Inouye. I thank you very much, General. And thank 
you, Secretary. Mr. Secretary, to the credit of the United 
States Army, last September commissioned a special 
investigating commission to look into acquisitions, personnel--
especially contracting personnel--the so-called Gansler 
Commission.
    And together with the Government Accountability Office 
(GAO) reports and other Army reviews that were conducted under 
your supervision, have all noted the need for more numbers of 
sufficiently trained contract oversight personnel, and the need 
for specialized training in contracting in expeditionary 
operations.
    The Gansler report, for example, highlighted that only 56 
percent of the military officers and 53 percent of civilians in 
the contracting career are certified for their current 
positions. What steps are we taking now?
    Mr. Geren. We've made great progress since that time. When 
I commissioned the Gansler report, I also commissioned a task 
force, and the job of the task force was to do everything we 
could do immediately, and not wait until the commission 
finished. And the task force and the Gansler Commission worked 
hand-in-hand over the course of the couple months that it took 
Dr. Gansler to produce his report.
    But we've taken the recommendations of that commission as a 
blueprint for building the contracting force that we need for 
the future. We've established a two-star contracting command, 
as recommended by Dr. Gansler. Unfortunately, and as we tried 
to implement many of his recommendations, we don't have the 
deep bench in contracting in order to fill these positions.
    But we created a two-star contracting command, which 
temporarily is filled by an SES two-star equivalent. We've 
created a one-star command for expeditionary contracting, and 
we've created another one-star command for installation 
contracting, and we've set up seven contracting brigades so it 
gives us seven 06 colonel-level positions.
    So we can start building a bench, so people that are in the 
contracting community in our Army have a future in the Army. We 
also have instructed our selection boards to take into 
consideration the contracting experience as they promote 
officers. We have made great progress. We also have added 400 
additional personnel into contracting, and are seeking to add 
another 800 into it, and building training programs along the 
way.
    The fact is, we have had a very empty bench in the 
contracting area. Dr. Gansler did a good job of laying out 
blueprints of where we need to go. But over the course of the 
1990s and in the early parts of this century, we allowed our 
contracting capability to wither. And when we look at the Army 
of the future, the deployable Army of the future, it is always 
going to deploy with a very significant support from 
contractors. Dr. Gansler estimated from here on it will always 
be about 50/50--50 percent uniformed military, 50 percent 
contractors.
    So we need to have in our Army people who are trained to 
supervise, trained to execute, and trained to operate the 
acquisition and contracting side. We've taken steps. It's going 
to be a multiyear process to get us back to where we need to 
be, and be something that we're starting in a hole, but we're 
making progress.
    Senator Inouye. We have been advised that the Army's 
Criminal Investigation Division has 90 ongoing investigations 
in Iraq, Kuwait, and Afghanistan, and that 24 U.S. citizens, 
including 19 civilian or military officials, have been indicted 
or convicted. And the contracts involved in the investigations 
have a potential value of more than $6 billion.
    The Army has identified more than $15 million in bribes, 
and more than $17 million levied in fines or forfeitures. Can 
you give us a current situation?
    Mr. Geren. Sir, the statistics that you cited, they are 
accurate. And last summer, it was recognition of the problem in 
Kuwait that led me to set up the task force and to establish 
the Gansler Commission.
    We have doubled the personnel over in Kuwait. We have taken 
many of the contracts that were in Kuwait, up to 18,000 of 
them, and used reach-back capabilities here in the United 
States to review all those contracts. We've already achieved 
significant savings in excess of $10 million.
    We've put new leadership over there. We have a colonel 
running the operation, who has got the operation in shipshape. 
We've given him the personnel he needs, we've given him the 
trained people that he needs, and we're providing support here 
back at home.
    The Kuwait Contracting Office was not properly staffed and 
not properly trained to accommodate--to handle the huge volume 
of contracts that were going through that office. The number of 
contracts in Kuwait quintupled, and we did not staff up to meet 
that. Last summer, in recognition of that, we completely 
overhauled the operation, put in new leadership, and supported 
it with reach-back capabilities here. I believe we have it in 
hand today.
    It's a sad day for the Army that we have seen that kind of 
criminal conduct, both by civilians and senior leaders of our 
military. It's a very black mark on our Army, but we have taken 
steps to correct it. And I believe today you would be satisfied 
with the operation we have in Kuwait.
    Senator Inouye. So you're satisfied that it's under 
control?
    Mr. Geren. Yes, sir. I am.

                        RECRUTING AND RETENTION

    Senator Inouye. I have one more question here on the DOD 
recruiting. We set a quality benchmark up until now of 90 
percent high school grads. I've been told that in fiscal year 
2007, less than 80 percent of the recruits had high school 
diplomas, which is a 2 percent decrease from 2006.
    What is the Army doing to address this problem?
    Mr. Geren. The Secretary of Defense's goal for high school 
diploma grads is 90 percent. It's important to note, though, 
every soldier that we bring into the Army has a high school 
diploma or a high school equivalent. They are either a diploma 
grad or a GED.
    But we did fall below our goals in 2007, and we've made a 
commitment that, as we work to grow the force and accelerate 
the growth of the force, that we will not fall below the 2006 
quality marks. And we're taking a number of steps in order to 
improve the quality marks. I think some of the recruiting 
initiatives that are going to help us in that regard. We are 
still above the congressional requirements in those areas, but 
we're not where we need to be.
    But I think when you look at--we try to use those quality 
indicators as predictors of whether or not a young man or young 
woman will succeed in the Army. As you see also, we've 
increased the number of waivers of young men and women that we 
bring in the Army, for a variety of reasons. We've found that 
those soldiers we bring in under waivers--and it's a very 
painstaking and labor intensive process--but every soldier that 
we bring in under a waiver is required to go through a 10-step 
approval process.
    And somebody with any sort of serious information in his or 
her past has to be reviewed by a general officer. We've found 
that those waivered soldiers--and we did a study of all 17,000 
waivered soldiers that came in from 2001 to 2006--and we've 
done a good job of picking those soldiers out of the many 
applicants that seek to join the Army.
    They've proven to promote faster than those who came in 
through the normal process. They've had more awards for valor 
than those who came in outside of the waiver process. They have 
re-enlisted at a higher rate. And even though some think, 
because they're waivers they're lesser quality, this process 
that we use to pick through all those who seek waivers and 
identify ones who are qualified to join the Army, has really 
been a success.
    So that's an area that we have had a lot of questions 
about, but when we examined it, it showed that we were finding 
soldiers that were performing well.
    But I think one of the most important things to keep in 
mind when we think about recruits, we are an Army at war. We 
are a Nation at war. And a lot of intangibles go into 
determining whether or not a young man or young woman is going 
to be a good soldier. But commitment, and commitment to 
selfless service, has to be at the top of the list.
    And every young man or woman that joins the Army today 
knows they're joining an Army at war. 170,000 of them joined an 
Army at war this last year. And we are not where we want to be 
on high school diploma grads, but that's the screening--that's 
the bottom line that everybody has to pass when they join the 
Army today. And I think that's helped us get the kind of young 
men and women that make good soldiers.
    But we're working to try to meet those quality marks. I 
can't tell you we'll do it in 2008, but I can tell you we're 
not going to let it drop below where we were in 2006.
    Senator Inouye. Thank you very much, Mr. Secretary, and 
your statement and response is most reassuring. Senator 
Stevens.

                  FACILITIES TO SUPPORT GROW THE ARMY

    Senator Stevens. Thank you very much. I do have some 
questions I'll submit for the record. But, Mr. Secretary, we're 
looking at adding 65,000 new troops within 4 years, it looks 
like, and that goal seems to be doable. But what about the 
facilities that we have to have for those people? Most of them 
now are married and they're all volunteers. Are we keeping up 
with the facilities requirement for 65,000 new people?
    Mr. Geren. We are. And we budgeted fully for all the costs 
and all the facilities for that 65,000 growth. And we've 
added--in order to speed up that growth, move it from 2012 to 
2010--we have added money in our supplemental requests. But we 
have in the base budget $70 billion over the future years' 
defense programs to cover the cost of bringing those soldiers 
and their families into the Army. And we believe that we can do 
it.
    Now, in order to accomplish that, we need to have timely 
and predictable funding. And particularly in the military 
construction area, over the last several years, the delays in 
getting the funding to the Army have made synchronization of 
some of these construction programs a challenge. And, as you 
know, a continuing resolution also fails to give us the 
authorities for new starts that we need.
    So we're having to manage a system that requires a lot of 
synchronization without having the kind of predictability in 
funding. But we do have the money in the budget to do it, and 
we're on track to do it. But, last year, also, we had a $560 
million cut from our base realignment and closure (BRAC) 
budget. So those hiccups along the way make the planning and 
the synchronization a challenge. But we do have the money in 
the budget to do it.

                           ENLISTMENT WAIVERS

    Senator Stevens. You've mentioned this problem of these 
waivers. When I was home last week, I found and sent--General 
Casey was up there--I found that the dropout rate in our high 
schools is increasing, but a large number of those people are 
going into the National Guard Challenge Program. They really 
want to get into uniform. They're the people of 17 and 18 years 
old that don't want to finish high school. They really want to 
go into the service.
    You do have an age barrier there in terms of enlistment, 
right? They have to be at least 18?
    Mr. Geren. Well, you can actually sign up when you're 17.
    Senator Stevens. You can.
    Mr. Geren. Uh-huh.
    Senator Stevens. But you have to have a GED or a high 
school diploma, right?
    Mr. Geren. Yes, sir. Uh-huh. And we----
    Senator Stevens. What do you do about these people coming 
in from the Guard's Challenge Program? Do they come in 
automatically? Is a GED automatic for that program?
    Mr. Geren. Well, as I understand the Guard program, they go 
through the Challenge and they earn a GED. The active Guard and 
Reserve, we're all working on innovative programs to try to 
provide additional educational opportunities for young men and 
women who want to join the Army. The dropout rate is a serious 
problem, and it varies across the country. There are certain 
States where we have a very high dropout rate, and many of 
those States are States where people have a high propensity to 
join the military.
    So we are coming up with plans that I think will really 
bear fruit over the next several years, where we try to get 
these young people who have good aptitude, and they want to 
serve, and help them get their GED, or in some cases, help them 
stay in school and get their high school diploma.
    As an Army, as we look to the future, and we look to large 
segments of the population that are not finishing high school, 
many of them could be contributors in our Army or other places. 
We're trying to help our society as a whole get these young 
people educated, and the Guard has been very innovative in that 
area. And the active duty has learned some good ideas from 
them, and we're implementing them.
    Other issues, too, that are going to affect the long-term--
obesity. You look at these long-term trends, young people, 
unfortunately, aren't as physically fit. And so we've got a lot 
of challenges like that. High school diploma grads in certain 
parts of the country, obesity in certain parts of the country--
they're challenges that, as the Army looks 10 years down the 
road, that we're going to have to be very creative in figuring 
out ways to identify the young people who can succeed in the 
Army that may fall outside of the metrics that we've looked at 
in the past.

                           LANGUAGE TRAINING

    Senator Stevens. General Casey, Senator Inouye--and I were 
on a trip over to the Philippines one time, at Mindanao, and we 
found your people training some of the Philippine soldiers on 
how to deal with al Qaeda and the terrorists that are 
apparently in some of those islands.
    It raised a question with me as to whether or not we ought 
to have greater training in terms of languages within the Army. 
What are we doing about preparing our people to deal with these 
languages? That was one of the stumbling blocks in Iraq, and 
certainly been a stumbling block in Afghanistan. As we go into 
this 21st century Army, are we going to emphasize language 
training anymore?
    General Casey. We absolutely have to do that. And just as 
an aside, Senator, the young man, Sergeant Greg Williams, who I 
mentioned earlier in my opening comments, I found out while I 
was up in Alaska last weekend that he's actually in the 
Philippines right now helping train some of those Philippine 
Army soldiers.
    You're absolutely right. We need to greatly increase what 
we're doing to prepare our soldiers to deal in these other 
cultures. We have several levels that we're working on now. 
First of all, our foreign area officers and our linguists who 
require a skill are about a small percentage of our force. They 
get first-rate quality training, and obviously they're getting 
a lot of experience on the ground in Iraq and Afghanistan.
    The second program that we've begun here is operational 
language testing where we take soldiers who are getting ready 
to deploy, for example, to Iraq or Afghanistan, and send a 
number of them off to Defense Language Institute for about 10 
months. And they get a good dipping in the local language.
    Third, for the bulk of the soldiers that are deploying, 
there is some basic language training in the commands and 
things they need to operate in the environment they're 
operating with. And we're working with some industries to 
develop these translators where you can just put in a phrase, 
hit a button, and it comes out in another language. But those 
are a few more years out.
    We're also looking at language requirements for officers 
and how we should adapt our policies for our, for example, ROTC 
scholarship graduates. And I have instructed my training and 
doctrine commanders responsible for these initiatives to come 
back in about the next several months here and give us a 
complete laydown on a holistic policy.
    But we are moving. We are not going as fast as I would like 
us to go, because I believe, as you do, that it's critical for 
our soldiers, if we're going to work in these other cultures, 
to have the basic understanding of the languages they are 
dealing in.
    Senator Stevens. Well, I was interested in what Secretary 
Geren just said, because if you look at these school districts 
now, I think we're teaching in high schools in Anchorage some 
40 different languages right now. I don't think we're taking 
advantage of the multicultural situation in many parts of our 
country.
    Some of those students could be trained in the language 
that you need, as easy as anything else. It is a variance 
thing. I've got to tell you, personally, I don't agree with it. 
I think we ought to teach all our kids in the English language, 
but we still have the problem of doing that in terms of some of 
the newcomers. I would hope--let me ask just one last question, 
Mr. Chairman.

                                 RESET

    It is my understanding that the reset program for the 4th 
of the 25th up there in Fort Richardson was a model. It was 
sort of a pilot project. What have you learned from the pilot 
project as far as reset is concerned? It is my understanding, 
they were reset at home. They were brought home for reset, 
instead of stopping off in someplace on the way home.
    General Casey. Right. What we're trying to do here is to 
come up with a standardized, 6-month reset model for Army 
units. So when they come back from an extended deployment, they 
have time to rest. But at the same time, they are put back in a 
deployable posture in 6 months, so they're ready to either 
begin training for whatever's next or to deploy again.
    And to do that, it requires doing our personnel and 
equipment policies differently. So, yes, what did we learn from 
the 4/25th up there in Alaska? When I went up there to talk to 
them this last week, the biggest concern they had was that we 
had some difficulty with our personnel policies.
    They needed assignment orders for about 400 or 500 folks 
they were having difficulty getting. And so I sent a team from 
the Department up there to sort that out, and they're up there 
now doing that this week.
    The other thing that we're doing is our Training and 
Doctrine Command has developed programs of instruction for our 
noncommissioned officer education programs that are about 60 
days. That took a lot of doing, because there are a lot of 
different skill sets required. But all but a handful now are 
done within about 60 days.
    And for the large populations of those skills, we're able 
to deploy teams to their home station. So it's kind of what you 
suggested, Senator, that they were reset at home. Where we send 
trainers up to Alaska, for example, they conduct the training 
that used to be conducted back in the lower United States right 
on home station. So our soldiers are coming home after being 
gone for 12 to 15 months, and don't have to pack up and go off 
for 60 days again. So we're not doing that for every skill set, 
but that's part of the overall reset program.
    The equipment side of things, they reported, was going 
pretty well. Now, they were able to send some of the equipment 
off from Iraq that went directly to depots, and will return to 
them before the 6 months is up. And we have small-armored pair 
teams, for example, that come from our Army Materiel Command, 
and they spend several weeks in the brigade fixing all the 
weapons that had been used over the time that they'd been 
deployed.
    So I'm heartened by it. I think it's going to be useful to 
us as an Army. And it will help us sustain the quality of life 
for these soldiers and families, and at the same time get us 
back to its efficient level of readiness rapidly.
    Senator Stevens. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Inouye. Thank you. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman, Secretary Geren, 
General Casey. We all appreciate your service to the Nation.

                            PROGRESS IN IRAQ

    General Casey, could you bring us up to date on where we 
are from your perspective as Chief of Staff of the Army, former 
Commander in Iraq, where we are today, February 2008, and where 
you believe we will be at the end of the year?
    General Casey. In Iraq or here?
    Senator Shelby. In Iraq.
    General Casey. That's really a question for General 
Petraeus, and he's coming back here in April. I, like everyone, 
have been waiting to hear where he thinks he's going to be able 
to get to by April.
    Senator Shelby. Well, what do you believe? I mean, you're 
the Chief of Staff of the Army.
    We've seen progress being made.
    General Casey. We certainly----
    Senator Shelby. We've certainly seen a lot of progress. 
We've seen a lot more stability that we had. It's not a stable 
area, but a lot more than we had 1 year ago. We've seen great 
progress with the surge. So from--you're the former commander, 
you're the Chief of Staff of the Army. From your perspective?
    General Casey. I think from a security perspective----
    Senator Shelby. Uh-huh.
    General Casey [continuing]. It's difficult to predict the 
future, but I think we will see continued improvement in the 
capabilities of the Iraqi Security Forces. That's been a 
constant trend.
    Senator Shelby. That would include the Army and the police?
    General Casey. Army and the police. That's correct. I think 
our forces will continue to be successful. I mean, that has 
never been at question. Our soldiers are the best in the world 
at what they do, and their ability to provide security has 
never been in question.
    I don't have as good a view on the political side as I used 
to. I can't follow it as closely.
    Senator Shelby. I understand that.
    General Casey. And that's really where the long-term 
progress in Iraq is going to be sustained.
    Senator Shelby. It's got to have a political--ultimately, a 
big part of the equation there. Is that correct?
    General Casey. Oh, absolutely. I think we've all said, time 
and again, that there is not a strictly military solution to 
this problem or the one in Afghanistan.

                         PROGESS IN AFGHANISTAN

    Senator Shelby. Well, over to Afghanistan. A lot of us are 
concerned about the resurgence of the Taliban. It looks like 
some of our allies perhaps are getting a little soft on their 
commitments to us and others in Afghanistan. I see Afghanistan 
is possibly at risk down the road if things don't change.
    General Casey. I'm----
    Senator Shelby. I don't think they've gotten better in the 
last year, in other words.
    General Casey. When I talked to General McNeil----
    Senator Shelby. Uh-huh.
    General Casey [continuing]. The NATO commander there, and 
General Rodriguez, they both believed that they are making 
progress and have made progress over the last years. I mean, I 
think, you've heard Secretary Gates has been quite vocal about 
what our NATO allies have not provided. And I think that's 
fairly common knowledge.
    Senator Shelby. General Casey, shifting back to equipment, 
and what our troops need, and what they use--UAVs. How 
important is it to the Army to have control in the tactical use 
of UAVs? General Petraeus told me in Iraq it's of the utmost 
importance.
    General Casey. It's absolutely, absolutely critical. And I 
have met with General Mosley----
    Senator Shelby. Uh-huh.
    General Casey [continuing]. Twice here. Once with my 
training and doctrine commander and his air combat commander, 
just the four of us. And then we had the first Army/Air Force 
staff talks in 5 years, where we had all of our three stars 
together.
    And the outcome of that session was that we agreed that in 
the three levels of war--tactical, operation, and strategic--
that the Army had to have control at the tactical level, that 
the Air Force needed control at the strategic level----
    Senator Shelby. Sure.
    General Casey [continuing]. And that the level that we 
shared, the operational level, we needed to work and build a 
joint concept of operations for how we would operate 
effectively there at the operational level, which is really the 
theater level.
    Senator Shelby. Absolutely.
    General Casey. And I think we have a team working on that, 
and they'll come back to General Mosley and I here in 1 month 
or so.
    Senator Shelby. I believe the marines and the Navy share 
the same position you do on that. Right?
    General Casey. That's correct. Yeah. We've also had a 
session with the Commandant of the Marine Corps and his three 
stars where we discussed the same thing.
    Senator Shelby. I'll try to be quick on this. Secretary 
Geren, JAGM, formerly the JCM, the joint air-to-ground missile, 
I understand that the request for proposals has not come out 
yet? When do you expect that to come?
    Mr. Geren. I don't know. Let me get back to you.
    Senator Shelby. Will you get back to the subcommittee and 
to me on that?
    Mr. Geren. I sure will.
    Senator Shelby. That's a very important program for the 
future, is it not?
    Mr. Geren. It certainly is. I'll get back with you with 
that information.
    [The information follows:]

     Joint-Air-to-Ground Missile Request for Proposal Release Date

    The Joint-Air-To-Ground Missile (JAGM) Request for Proposal 
(RFP) Phase 1 (Technology Demonstration) was approved for 
release on March 5, 2008 by Major General James R. Myles, 
Commanding General of the U.S. Army Aviation and Missile 
Command (AMCOM).

                         FUTURE COMBAT SYSTEMS

    Senator Shelby. What about you had mentioned the future 
combat systems, where we're going to be in the future? How 
important is the future combat system to the Army? General 
Casey might want to pick up on that.
    General Casey. It is the core of our modernization efforts. 
As you know, it is our only modernization program in the last 
20 years. I will tell you, as I have looked at warfare in the 
21st century, the future combat system is a full-spectrum 
combat system. It's capable at the high-end at major 
conventional war.
    And because of the unmanned aerial vehicles and unmanned 
ground sensors, it gives us a great capability to collect 
precise intelligence, which is absolutely required when you're 
operating among the people in environments like Iraq and 
Afghanistan.
    Now, in conventional war, you may be looking for the second 
echelon army, which is pretty easy to--relatively easy to find. 
In Iraq and Afghanistan, you're trying to find a terrorist on 
the sixth floor of a high-rise apartment building. That 
requires very precise and persistent intelligence capabilities, 
like you said, like you have in UAVs and the sensors.
    So it is the core of our modernization efforts. It's a 
full-spectrum system. And it's the type of system we need in 
the 21st century.
    Senator Shelby. Thank you. Thank you, Mr. Chairman. Senator 
Inouye: Thank you. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman, and 
thanks to the two of you for coming and answering honestly to 
us here today.

                         AN OUT OF BALANCE ARMY

    General, I didn't write down the words, but both you and 
the Secretary used words to describe the current situation of 
our military as being out of focus.
    Mr. Geren. Out of balance, right.
    Senator Domenici. Yeah. That could be very fairly serious 
if we don't get it fixed as soon as possible. Right?
    Mr. Geren. That is correct. And it is going to take us 3 or 
4 years to put ourselves back in balance. And I think that's 
important that everyone understand that. That when we get out 
of balance, it is not an immediate fix.
    Senator Domenici. What is it that is out of balance, and 
how do you describe its impact on the military?
    Mr. Geren. Well, as I said, first, we're--the current 
demands exceed our sustainable--our ability to sustain. In 
other words, we strive to have a level where our soldier 
deploys for 1 year and is home for 3 years. We're not there. 
They're deploying for 15 months and home for 1 month.
    And as we grow, as we increase the size of the Army, and as 
the demand comes down to the 15 brigade combat teams in Iraq 
that we expect to have in by July, you will gradually see that 
ratio of boots on the ground, the time at home, improve. And 
that has to happen. That has to happen.
    Our soldiers and leaders need to see that over time they 
won't be deploying for 15 months and home for 12 months. That's 
just not the sustainable.
    Senator Domenici. All right. And, Mr. Secretary, the money 
to try to bring that balance is appropriate to fund at this 
time and it's in the budget, right?
    Mr. Geren. It is. If we can stay on track that we--and a 
lot of it, though, it depends upon what the demand from theater 
is. And we don't have any control over that, but----
    Senator Domenici. You mean if the ground changes under you, 
then you aren't going to make as much headway in this balancing 
as you might expect. Is that what you're talking about?
    Mr. Geren. That's right.

                               EDUCATION

    Senator Domenici. All right. In terms of the educational 
capacity of the military, let me talk 1 minute with you about 
the schools within the military. I understood that one thing 
you were excellent at was educating the people in new 
languages.
    Is that still correct? Are you--is the United States 
military one of the superior educators in foreign languages 
that we have in our country?
    Mr. Geren. We do have excellent language training.
    Senator Domenici. You spoke about educational needs with 
one of our Senators, and I think it was Senator Stevens. I 
didn't hear either of you say that we are dramatically 
increasing our educational capacity to make up for deficiencies 
of those of who are coming in or the needs for those coming in 
to know languages.
    Did I miss something, or are we increasing our capacity to 
be educators in the military?
    Mr. Geren. We're broadening the language instruction in the 
Army and looking at ways to incentivize language instruction in 
our ROTC students. We are not where we need to be. We're trying 
to have more soldiers, both educated in culture of other 
countries, as well as languages of other countries.
    But we recognize the need for that and are putting more 
resources into those areas, and trying to provide training to 
more soldiers in languages and in foreign cultures, as well.
    Senator Domenici. I sensed that when you were speaking with 
Senator Stevens about recruits, and whether they had to have 
GEDs, or whether they had to be high school graduates, and the 
fact that there were just a number of so-called dropouts in 
America that really wanted to be in the military.
    Do you find that if they have a high school diploma they 
are more apt to be able to meet the demands that you place upon 
them? Or does the fact that they want to be in the military 
supply for that deficiency in education?
    Mr. Geren. Well, everybody that comes in has to have either 
a diploma equivalent or a diploma. The diploma has--we consider 
it a quality mark, and also a measure of the attrition 
possibility of a young person. We have seen that if somebody 
finishes high school, they tend to show determination to stick 
with tasks.
    But we have found that in many cases, and the quality high 
school education varies a lot across the Nation, and varies a 
lot within States, that we have many young men and women who 
are high school diploma grads who don't score as well on the 
aptitude tests as some of the young people we bring in who are 
not high school diploma grads.
    So we--when we look at aptitude, our aptitude test we feel 
are good indicators of somebody's ability to succeed in the 
Army.

                       ENGINEER BATTALION AT WSMR

    Senator Domenici. Can I change to a parochial issue? And I 
hope I have time for it. And, if not, I'll just submit it. Last 
spring, the Army announced, as part of the President's Grow the 
Army Plan, an engineering battalion would be located at White 
Sands Missile Range (WSMR) in New Mexico. Do you know the 
status of that relocation?
    Mr. Geren. I do not.
    General Casey. I do. We're on track, Senator. You should 
expect to see advance parties showing up there in the June 
timeframe, and their activation will be around October. And 
there's about $71 million that's been authorized and 
appropriated to build the facilities that they need there at 
White Sands. So, I would say it's on track.
    Senator Domenici. Well, there is $70 million in Milcon for 
White Sands for that purpose, but I understand that there's no 
funding in the 2009 budget for other moves to White Sands. Will 
you check that out for me?
    General Casey. I will check that out. I know it's in 2008. 
I'll check that out.
    [The information follows:]

       Funding for White Sands Missile Range in Fiscal Year 2009

    Congress authorized and appropriated $71 million in fiscal 
year 2008 to provide permanent facilities for the 2nd Engineer 
Battalion at White Sands Missile Range. As this satisfies the 
unit's requirements for permanent facilities, we did not submit 
a construction request for fiscal year 2009. Advanced parties 
of the 2nd Engineer Battalion are scheduled to arrive in June. 
We will begin constructing permanent facilities later this 
summer and activate the unit on October 16, 2008.
    Initially the unit will be housed in, and operate from, 
renovated existing facilities and some relocatable facilities.

    Senator Domenici. Oh, and one last one. There's a very 
sophisticated system called the high energy laser system test 
facility. The high energy laser facility, commonly known as 
HELSTF, you've heard of it, I think.
    General Casey. I've visited it.
    Senator Domenici. Yeah. It is a pre-eminent laser test 
facility and a major range and test base facility. Your budget 
calls for deactivating portions of that. I wonder, how do you--
how do these cuts comply with your duty to maintain HELSTF as a 
major range and a test base facility for the good of all of 
DOD, not just for that particular function? Do you have an 
answer?
    Mr. Geren. I don't, Senator. We'll take that for the 
record.
    Senator Domenici. I would appreciate it if you'd submit 
that for the subcommittee, please. That's all I have. I thank 
you very much.
    [The information follows:]

        Deactivation of High Energy Laser Test Facility (HELSTF)

    When preparing the fiscal year 2009 President's budget, the 
Army consulted with potential users across the Department of 
Defense (DOD) regarding requirements for use of the High Energy 
Laser System Test Facility (HELSTF) megawatt laser 
capabilities. At that time, we concluded there were no firm 
requirements for either the Mid-Infrared Advanced Chemical 
Laser or the Sea Lite Beam Director. The DOD Test Resource 
Management Center (TRMC) concurred with our decision when it 
certified our fiscal year 2009 test and evaluation budget on 
January 31, 2008.
    As required by the fiscal year 2008 National Defense 
Authorization Act, the Army, with TRMC as the lead, is 
conducting a cost benefit analysis of the proposed reduction of 
funding at HELSTF. The analysis will include an updated survey 
of all DOD and Service projected requirements to determine if 
future year requirements have emerged since the initial survey 
for megawatt class chemical lasers.
    HELSTF remains operational to support laser programs. 
HELSTF will be a vital asset as the DOD moves forward with 
solid state laser development.

    Senator Inouye. Thank you very much. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you. Mr. Secretary and 
General, thanks for being here. I want to ask about two things. 
One is contracting, and the second is the issue of out of 
balance.

                          OUT OF BALANCE ARMY

    So let me take the issue of out of balance first. A 
recently retired four star gave a presentation the other day, I 
understand, in New York. I got a call from someone who was 
there. And he essentially said this. He said, ``It's 
dysfunctional to have one-third of the Army's budget funded on 
an emergency basis.'' He said, ``The way we're headed--'' he 
didn't use out of balance, but he apparently said, ``The way we 
are headed we will have great military bands, and lots of 
generals and admirals, and substantially diminished military 
capability.''
    I've heard this before from others who retire, and then 
give us a much harsher view of diminished military capability 
than we receive from those on active duty. I don't know what 
the facts are, but I only tell you that this particular one 
came from someone that I have deep admiration for, who is 
recently retired as a four star. So, I mean, when you talk 
about out of balance, is that a softer euphemism for a much 
more serious problem, General? Because others, who have just 
left the service, give us a much more aggressive picture of 
very serious problems in diminished military capability.
    General Casey. Yeah. I don't think I'm trying to soft-pedal 
anything by what I say about using the term ``out of balance,'' 
Senator. Because as I said, this is not a broken Army. When you 
visit the soldiers in Iraq and Afghanistan, I mean, I think you 
see it's a magnificent Army. There is no other army in the 
world that can touch it.
    Now, are we where we want to be? No. And we fully 
acknowledge that. Our soldiers are deploying too frequently. We 
can't sustain that. It's impacting on their families. It's 
impacting on their mental health. We just can't keep going at 
the rate that we're going.
    Our equipment is being used in these desert environments, 
mountain environments, and it's wearing out about five times 
faster than we thought. We have to focus on counterinsurgency 
training, as I said, because that's all they have time to do in 
the year that they're home. Our full-spectrum skills are 
atrophying.
    And while the risk is acceptable in the short term, it's 
not something we can sustain over the long haul. So I don't 
think I'm trying to soft-pedal this at all. We have some very 
significant challenges here. We know what we need to do. If we 
get the resources in a timely and predictable fashion, we 
believe we can fix ourselves in the next 3 or 4 years.
    Senator Dorgan. And isn't that at odds with the notion of 
funding almost one-third of the Army's budget on a continuing 
basis on an emergency basis? Wouldn't--I mean, that seems to me 
to be completely out of sync with----
    General Casey. Well, I mean, if you look at the fact that 
in the supplementals that we have gotten here over the last 
several years, about 70 percent of those supplementals go 
directly to pay for military pay and for operations and 
maintenance to support the theaters. And so that--it may sound 
like a lot, but it's going right to the war.
    Senator Dorgan. Yeah. It seems to me it's dysfunctional 
that we don't have a long-term plan without emergency 
requirements, none of which is paid for, as you know, to fit 
into our budget schematic of what we need to do for our 
country.
    And let me just say, that when I asked the question about 
what others who have recently retired are saying about the 
capacity, I think everybody on this panel is enormously proud 
of our soldiers. I mean, there's no one that I know that has 
been anything other than complimentary, enormously 
complimentary of our soldiers and our military. So I thank them 
for that.
    I do just want to ask the question about the contract end, 
because----
    General Casey. If I could, before you go there, just make 
one more point, and I think your point on supplemental versus 
base program funding, I mean, our growth this year--the $15 
billion worth of growth is exactly that. It's come from the 
supplemental into the base. So I think you're starting to see 
that.

                           CONTRACTOR ISSUES

    Senator Dorgan. I understand that. I don't understand why 
we have moved to so much contracting in the military. There's 
so much, much more than has been done in the past. And I guess 
I don't understand it, and I think, frankly, that we have been 
fleeced in an unbelievable way. Very few hearings on it.
    A guy named Henry Bunting, a quiet guy from Texas, showed 
up once and he brought this with him. They were contracted by 
the Department of Defense to do a lot of things--to buy a lot 
of things. This was towels for the troops, and he ordered his 
white towels, because he was a purchaser for Kellogg, Brown, & 
Root. He ordered the white towels.
    The supervisor said, ``You can't do that. You need to 
reorder these towels. We need KBR embroidery, the logo of the 
company on the towel.'' He said, ``But that would quadruple the 
price of the towels.'' ``Doesn't matter, it's cost plus 
contract.'' And so he brought the towel to show me what he had 
to do, because his supervisor said, ``The taxpayers will pay 
for this.''
    An example of--the same company was contracted to provide 
water to our military bases in Iraq. They provided potable and 
nonpotable water. The nonpotable water is for showering, 
shaving, brushing teeth, and so on. Turns out the nonpotable 
water provided to the military base at Ramadi, and most other 
bases, was twice as contaminated as raw water from the 
Euphrates River, because of the way they were treating it.
    And the company said that wasn't true, but then we 
discovered an internal secret memorandum from the company in 
which the person in charge of all water for the military bases 
in Iraq said, ``This is a near-miss. Could have caused mass 
sickness or death, because we weren't testing the water and 
weren't doing what we should have done with what is called 
ROWPU water.''
    The military said, ``That's not true. None of that was 
happening.'' That was the position of the Army. ``It's not 
true.'' And an army captain physician serving in a military 
base in Iraq wrote me a memo, just out of the blue, and says, 
``I read about this. It is true. I had my lieutenant go follow 
the water lines and the nonpotable water was more contaminated 
than the raw water from the Euphrates.''
    And there will be a GAO report, by the way, which is going 
to be published very soon that will say that this water was not 
tested by those that we paid to test it. The contamination did 
exist. Fortunately, we didn't have mass sickness, but the 
contamination did exist. This will be a GAO report. And the 
military, the Army, has insisted, has insisted publicly, that 
the contractor did exactly what it was supposed to be doing. 
There was no issue here of testing.
    I have never understood why there wasn't somebody in the 
Army that said, ``Wait a second. These charges, if they're 
true, then by God, they're serious and we're going to stand up 
for soldiers here.'' Couldn't get anybody to do it.
    And there will be GAO report out, General, that says that 
the Army, in suggesting that none of this was a problem, was 
wrong. Just wrong. And an army captain physician, a woman at a 
base in Iraq, knew it because she sent me an e-mail, out of the 
blue. But I knew it, as well, because I had the internal 
Halliburton documents that described the problem they had. I'm 
just telling you that--now, that happened--that's supplying 
towels, supplying water.
    I had a man named Rory come to see me. He was a food 
service supervisor, and he said we were charging for far more 
soldiers--charging for 10,000 soldiers eating when 5,000 were 
eating meals. So providing towels, providing food, providing 
water, it used to be that the military did that, and now it's 
all contracted. I think we have been stolen blind, and I think 
that this Congress has not done its job and I'm--General Casey, 
you have not been on duty during most of this description that 
I've just given here. And you can't answer this.
    I'm just telling my own concern. We have to shape up this 
contracting. And, Secretary Geren, you talked about the 
contracting some, and you think that you've got it shaped up. 
I'm telling you, I have looked at a lot of it. I've done 12 
hearings on this. What has happened there is almost 
unbelievable. And I hope we shape it up, and I hope we do a lot 
less contracting, and I hope we start doing a lot more of this 
in the military. But I thank you for listening.
    I'm not asking a question about it. I'm just telling you 
that I've spent a lot of time trying to figure out what's going 
on, on behalf of soldiers. Because, after all, the soldiers are 
what we're concerned about here. So I thank you for showing up. 
You're welcome to comment on this if you choose, but I did want 
to tell you I've had great angst about what's happening, 
because I don't think it's right, not for the soldiers, and not 
for the American taxpayers.
    [The information follows:]
     Logistics Civil Augmentation Program (LOGCAP) Contract Issues
             monogrammed towels and food service headcounts
    The allegations concerning the purchase of monogrammed towels and 
overstated headcounts in dining facilities in base camp operations have 
been reviewed by Army logistics and acquisition officials. There were 
instances where gym towels, monogrammed with the letters ``MWR'' 
(Morale, Welfare, and Recreation) as well as ``KBR'' (Kellogg, Brown, 
and Root) were purchased under the LOGCAP-III contract. These towels 
were ordered at a cost of 1KD (approximately $3 each). KBR requested 
that the towels be embroidered in an effort to prevent theft. 
Subsequent to concerns posed regarding the use of KBR monogrammed 
towels, KBR switched to embroidered towels using letters MWR, to 
designate the towels for gym use in MWR centers.
    With regard to KBR improperly charging for meals in dining 
facilities by overstating the daily headcount, the Army reached a firm, 
fixed price agreement with KBR on March 28, 2005, for food service 
costs. The agreement covered 15 LOGCAP Task Orders providing food 
services during the first 6-9 months of Operation Enduring Freedom/
Operation Iraqi Freedom. The negotiated agreement decremented the 
contract by $55 million and resolved a withholding of payment of $55 
million. The settlement implements the Department of Defense position 
that payments should be based on the actual services provided to 
patrons, while accounting for conditions that existed early in 
contingency operations. Among other things, these conditions included 
the use of government planning data during early operations where no 
experience data was available, and recognition of portion control 
issues. Since the settlement was negotiated, KBR instituted an improved 
subcontractor billing methodology which separately identifies 
individual cost elements and requires billing food costs based on 
actual meal counts. The Defense Contract Audit Agency supports the 
improved billing system as a significant improvement over the prior 
subcontract methodology which provided consistent pricing methodology 
across all sites, fixed costs that are separately identified and 
billed, and food costs that vary directly with actual headcount/meals 
served.
                            nonpotable water
    We share common goals of ensuring the health and safety of our 
Soldiers and of effective contractor performance, not only for Kellogg, 
Brown, and Root, Inc. (KBR), but for all of our support contractors.
    Regarding the quality of water provided to our Soldiers, we have 
improved internal quality control procedures and have expanded 
oversight for all water production, storage, and distribution, potable 
and non-potable. Standard Operating Procedures (SOPs) for all water-
related activities have been updated and we are continuing to look for 
ways to improve our operations toward that goal. The U.S. Army Center 
for Health Promotion and Preventive Medicine (CHPPM) is conducting a 
detailed study of water treatment processes in Iraq that will be 
completed this May.
    Before January 2006, the Army did not require water quality 
monitoring of non-potable water. Army regulations did not address the 
use of Reverse Osmosis Water Purification Units (ROWPU) to process non-
potable water for hygiene purposes. It is important to note; however, 
that potable water supply treatment and surveillance were monitored and 
tested in accordance with applicable standards and that its quality was 
never in question.
    Both the Department of Defense (DOD) and KBR responded in an 
expeditious manner to ensure water quality at Q-West and Ar Ramadi were 
safe for use by deployed forces. DOD directed KBR to take immediate 
action to super-chlorinate the storage tanks and redirect the ROWPU 
concentrate output lines. At Ar Ramadi and Victory, KBR immediately 
began monitoring non-potable water that was purified by other water 
producers. Preventive medicine officials increased monitoring of water 
quality at point-of-use shower water storage containers. As a result of 
internal quality control procedures and DOD oversight, quality 
assurance for the processes of both potable and non-potable water 
production, storage, distribution, and monitoring at point-of-use were 
deemed adequate. Since November 2006, there has not been a recurrence 
of this problem.
    Updated procedures have been put in place to emphasize that water 
quality lapses must be promptly reported and that all newcomers receive 
adequate information concerning drinking water consumption and non-
potable water usage. The Army has taken the following significant 
actions to improve water surveillance and ensure Soldier health:
  --Provided every new Soldier and civilian with standard information 
        concerning water consumption in Iraq upon arrival;
  --Issued a LOGCAP contractor SOP for water production operators that 
        designates procedures to report water quality lapses;
  --Established a board consisting of officials from Multi-National 
        Force--Iraq, Multi-National Corps--Iraq (MNC-I), Defense 
        Contract Management Agency, Preventive Medicine, LOGCAP, and 
        Joint Contracting Command--Iraq to meet quarterly and oversee 
        the quality of water operations;
  --Directed KBR to provide a list of all water containers to MNC-I 
        Preventive Medicine officials;
  --Updated MNC-I SOP 08-01, Annex Q, Appendix 6, Tab H, ``Iraqi 
        Theater-Specific Requirements for Sanitary Control and 
        Surveillance of Field Water Supplies,'' to mandate the 
        standards, controls, testing, and recordkeeping for types and 
        uses of water in Iraq;
  --Conducted an assessment as to the numbers of the adequacy of 
        Preventive Medicine sections required for testing; augmented 
        military units with LOGCAP contractors where needed; and
  --Drafted the multiservice edition of TB Med 577 which is projected 
        for publication in August 2008; it addresses the use of non-
        potable water for showers, contractor water production site 
        monitoring, military non-potable water supply monitoring, and 
        the responsibilities for contractors to report their monitoring 
        results to preventive medicine; it also directs preventive 
        medicine to provide oversight and review of contractor water 
        production, storage, and distribution procedures.
    The quality of both potable drinking water and non-potable water 
used by our service members meets all standards of Army Technical 
Bulletin 577, ``Sanitary Control and Surveillance of Field Water 
Supplies.'' Additionally, the March 7, 2008, DOD Inspector General 
Report titled, ``Audit of Potable and Nonpotable Water in Iraq'' 
concluded that processes and procedures for production and quality 
assurance of water in Iraq were adequate as of November 2006.

    Mr. Geren. Let me just speak to a couple of points quickly. 
When we shrunk the Army, as we did in the 1990s, to the size 
that it is today--the 482,000 soldiers on active duty, now 
we've got about 525,000 on active duty--we put ourselves in a 
position where we could never go to war without heavy reliance 
on contractors.
    And with this size of an Army, if we are going to have the 
soldiers we need to carry rifles, we really had no choice but 
to contract out many of those support services. And that's for 
the Army that we have, and the commitments we have around the 
world. I don't think we're going to see much change in that 
area. But we can do a better job of supervising contracting. I 
could not agree with you more.
    I will certainly follow up on all the issues that you've 
raised. And when we get evidence of any type of contracting 
abuse or fraud, I hope that I can say we follow up on it. I 
can't say that we have in every case. But it's certainly our 
commitment to do that, and this contracting task force that we 
set up last summer, under General Ross Thompson, and brought 
another SES from Army Materiel Command, their job was to get 
whatever it took to go and root out contracting fraud in our 
operations.
    And one of the things we've done is add considerable 
additional compliance officers, people that--we in Kuwait did 
not have compliance officers assigned to all of our contracts. 
We had some situations where people were just paid by volume. 
There's a soldier who has been indicted for a scheme which 
resulted in fraud of $10 million, we believe. And we didn't 
have a compliance officer checking to make sure we were getting 
what we paid for.
    So we've beefed up the number of compliance officers. Over 
the coming years, we're going to do a better job of training. 
We're going to develop officers in our Army that know, ``I can 
be in contracting, and I can have a career in contracting, and 
I can become a general officer in contracting.''
    Dr. Gansler, in his report, had a very interesting slide. 
It showed the rate of contracting going up like this, to the 
point where now the Army--when you look at dollar volume, the 
Army executes nearly one-fifth of all the contracts for the 
entire Government. And he looked at employees, civilian and 
military, in our Government went like this. So contracting is 
going up like this, trained contracting officials stay flat. So 
we're trying to correct that right now.
    We have work to do in this area, but I can assure you we 
take those allegations of fraud as seriously as you do, and 
particularly anything that threatens the health or safety of 
our soldiers. That is a core Army value.
    Senator Dorgan. Mr. Chairman, you've been very patient with 
me. I want to make one additional comment. There's a woman over 
in the Pentagon named Bunnatine Greenhouse who was demoted, 
lost her job, because she had the courage to speak out about 
the LOGCAP and the RIO contracts that were awarded. She said it 
was ``the most blatant abuse of contracting'' she'd seen in her 
lifetime, and she was the highest civilian official at the U.S. 
Army Corps of Engineers.
    For that courage, she lost her job. And now it's been 
subsumed in this--behind this big curtain of, ``Well, it's all 
being investigated.'' It's being investigated for 3 or 4 years 
and--it's over 3 years now--and it, I assume, discourages 
others from doing the right thing.
    But again, I'm saying things to you that are not on your 
watch, but I do very much hope that you all would be 
bloodhounds on these issues. Because it's under--it disserves 
the American soldier and it disserves the American taxpayer 
when we're not getting what we're supposed to be getting.
    And I hope you'll look into Bunnatine Greenhouse. I spoke 
to Secretary Rumsfeld about her, spoke to Secretary Gates about 
her, and this is a woman that has been terribly disserved by 
her Government. She had, by all accounts, outstanding reviews 
by everybody and, by the way, General Ballard, the head of the 
Army Corps of Engineers who hired Bunnatine Greenhouse, said 
she was an outstanding employee.
    And then she got in the way of the good old boys network 
that want to do separate contracting, behind the curtain, and 
do it not in conformance with contracting rules. She spoke out. 
And, for that, she paid with her career. And I hope one of 
these days maybe somebody will do some justice or provide some 
justice for Bunnatine Greenhouse. Thank you.
    Senator Inouye. Thank you very much. Senator Murray.
    Senator Murray. Mr. Chairman, Senator Mikulski is on a 
really tight timeframe, and I'm happy to yield to her first and 
follow her, if that's all right with you.
    Senator Inouye. Senator Mikulski.

                                 RESET

    Senator Mikulski. Thank you very much, Mr. Chairman. And 
thank you, Senator Murray. First of all, to both you, Mr. 
Secretary, and to you, General Casey, I think those of us at 
the table, and certainly me, personally, want to salute our 
Army. And we want to salute our armed services, those on active 
duty, those who are in the Reserve, those in the Guard, those 
in the battlefield, those that are serving here. I think we all 
agree that our military's done all that's been asked of them.
    What I think what we now see with the surge is that we 
can't sustain it, we can't sustain the level of troops, and we 
can't sustain the level of money necessary to support the 
troops.
    My colleagues have asked those questions about adequacy of 
troop level, adequacy of equipment, the need to bring those 
back into balance. My focus is going to be on another area, but 
I think we're in a crisis here. This has been a very cordial 
hearing, and I just, again, want to afford my deep respect to 
both of you. But we are in a crisis about what this country can 
do, and what this country can sustain.
    Now, I want to come back to something called reset. My 
colleague, Senator Murray, will be asking about the Guard. I'm 
very concerned about the Guard, because I feel the Guard's 
treated like a stepchild. It's certainly treated like a 
stepchild when they go and have to bring their own equipment, 
and also treated like a stepchild when they come home with 
reintegration issues.
    She's going to ask my same set of questions. But let me go 
to this, something called reset, the military family, and so 
on. I don't know what reset means. I truly don't, and I don't 
mean this with any disrespect, I don't know what the hell that 
means. And if we're talking about the family, I don't know what 
that means.
    So if you could share with me, what does reset mean? Does 
it mean when they come back--some of them bear the permanent 
wounds of war, but you've been to war. Everybody in war is 
impacted by war, and the family is impacted, the spouse is 
impacted, the children. So my question is, what does reset 
mean? And then, my other question, just in the interest of 
time, could you refresh for the subcommittee the response to 
the Walter Reed scandal. And efforts were taken, and thanks for 
appointing General Schoomaker as the Army Surgeon General. But 
my question is, refresh for the subcommittee the Dole-Shalala 
report. And where are we in accomplishing what their 
recommendations were?
    So what does reset mean? And where are we going? And then, 
where are we with the Dole-Shalala recommendations, which I 
thought was a clear path to reform and dealing with our 
military families?
    General Casey. Okay. Senator, let me take the reset 
question. As I mentioned in my opening statement, after 
soldiers deploy for the extended period, they need to recover 
personally, their organizations need to be recovered, and their 
equipment needs to be recovered. And, as I mentioned in 
response to another question, we're trying to get that done in 
an acceptable period of time.
    One, so the soldiers do have enough time, where they're not 
frenetically moving from one thing to another so they have some 
time to recover physically and mentally. And I tell folks when 
I'm going around talking to them about the need to slow down 
when they come back and to recover, it's like running a 
marathon. When you run a marathon, 2 or 3 days after you finish 
running, you think you feel pretty good.
    But you've broken yourself down inside in ways that you 
don't understand. The same thing happens in combat. And it 
takes awhile to restore that.
    The second piece of it is equipment, and you can't use 
equipment----
    Senator Mikulski. No. And I understand the equipment. I 
want to go to the personal part, which goes to reset of the 
combat veteran as he or she returns home. And that's where I 
really worry. I really worry about them recovering, but you 
just can't--with all due respect General, reset sounds like a 
button that you push and all is okay. I reset my computer. I 
reset a lot of things. That sounds like pushing the button.
    When they come back, their lives have changed. Their spouse 
has changed. They've changed. Their children have changed. We 
have children in our schools who watch TV and hear about the 
battlefield. We have children in schools that are in grief 
counseling because their mother or father are away. You know 
when some of these men or women come home, even when they go to 
a store, to a Home Depot, the kids are grabbing them by the 
legs, ``Are you leaving us again?''
    This is not something called reset. And that comes back to 
the Dole-Shalala report. How is it that we are truly helping 
the families, because I'm concerned that, once again, the 
funding is Spartan, and the understanding of the problem is 
skimpy.
    General Casey. Okay. Senator, as the Secretary and I both 
have mentioned, we have recognized the pressures and the 
stresses that these repeated deployments have placed upon 
families. And we have both restated our commitment to families 
in five key areas, and put our money where our mouth is, and 
doubled the amount of money that we're putting toward soldier 
and family programs.
    There was no question in the minds of my wife and I after 
we traveled around the Army when we first took over that the 
families were the most brittle part of this force. And we have 
a wide range of programs to help the families with the 
reintegration process.
    I will tell you, I am not as comfortable--we have not gone 
as far with the Guard and Reserve as I would have hoped, and we 
are doubling our efforts with the Guard and Reserve. We had a 
program which was well-intentioned that said you couldn't 
assemble the Guard and Reserve unit for 60 days after they got 
back. And so people, they had the time to relax. But what we 
were missing is the interaction that needs to take place among 
the people that they deployed with to help them through these 
things.
    And obviously, Guard and Reserve challenges----
    Senator Mikulski. Well, General, I think we need to work at 
this money issue here. But thank you for that answer.
    Do you want to tell me, Secretary, where we are in Dole-
Shalala?

                             ARMY FAMILIES

    Mr. Geren. Well, I'd like just real quickly add to what 
General Casey said on the investment in families. And our 
effort is comprehensive, and we've got some good ideas that are 
coming from a number of different places within the Army and 
outside of the Army.
    And up in Madigan Army Medical Center, in Senator Murray's 
State, one of the most innovative programs had to do with the 
issue that you've raised about the--you've talked about the 
children and how they cope with deployments. They had a program 
there where they studied the impact of deployment on children, 
and they developed the Child Resiliency Program that deals 
specifically with those stresses and strains that children 
suffer with, in the deployment. And they developed a program 
that we actually take to the schools to help the teachers and 
help their counselors there.
    So we're trying to reach out, understand those challenges, 
and then trying to meet them. And we've seen some great 
initiatives come from different places in the Army. We've 
empowered the Army to think, make this a high priority, and 
work through it. And I believe we've made some progress, but we 
are not where we need to be.

                        ARMY MEDICAL ACTION PLAN

    Let me, on Dole-Shalala. We really have three guiding 
documents that have helped shape our reforms in the Army, after 
what we experienced at Walter Reed. We had Dole-Shalala, we had 
the Marsh-West--Secretary Marsh and Secretary West--and we had 
an Army Medical Action Plan.
    And if you look at the Dole-Shalala, I could group it very 
roughly. One, patient care was a piece of it. And the other was 
the disability system--moving a soldier, sailor, airman, or 
marine from active duty across this handoff to the Department 
of Veterans Affairs (VA). And our--how do we improve that 
process?
    On the latter, the move of the soldier from the Army to the 
VA, we are doing a better job there. The Secretary of Defense 
appointed a working group to work that issue with the Deputy 
Secretary of Defense and the Deputy Secretary of Veterans 
Affairs working together, and met every single week for months 
on end.
    We have a pilot program out of Walter Reed that is working 
to try to figure out how we can do it better.
    Senator Mikulski. But in zero to 10.
    Mr. Geren. I beg your pardon?
    Senator Mikulski. On a scale of zero to 10, Mr. Secretary, 
with 10 we've really accomplished the recommendations of Dole-
Shalala, say, in the disability area.
    Where would you put us? At 10, we've done it. And we've 
done it the way it ought to be done.
    Mr. Geren. The pilot program is a major step forward, but 
it's just a pilot at this point. And we are just now beginning 
to bring servicemen and women through that pilot. And until we 
have the results of that pilot, I don't think we can judge it. 
Let me talk about patient care, if you would.
    Senator Mikulski. And I'm going to come back to that during 
military medicine. Because, again, that's a whole other topic, 
and I know our chairman has been certainly a leader in the 
issue of military medicine. But medicine, again, is for the 
family, it's the integration, it's the disability system. 
Walter Reed wasn't just a headline that we forgot about. So----
    Mr. Geren. Nor have we, Senator.
    Senator Mikulski. No, no. And I know that. And I know that. 
And I, again, I'm going to thank you for General Schoomaker, 
who I know has really been very aggressive in this area.
    Mr. Geren. He's doing an outstanding job. We've developed 
an Army Medical Action Plan, which advances the themes of Dole-
Shalala. The area that we learned we had failed so badly in at 
Walter Reed was in outpatient care. We've radically overhauled 
that system.
    Over 1 year ago, when this problem developed, we treated 
the Guard and Reserve. They were called medical holdover 
population. The active duty was medical hold. We've done away 
with that distinction. Across our Army, we've created 35 
warrior transition units (WTU). We've moved these soldiers into 
those warrior transition units. Every single one of those 
soldiers now has a triad of support for that soldier--a squad 
leader, ratio of 1 to 12; a nurse case manager, 1 to 18; a 
primary care physician, 1 to 200.
    We've got ombudsmen in every one of those facilities. We 
have added 2,500 staff to support those warrior transition 
units. And we're not just measuring inputs, we're also 
measuring outputs, the satisfaction of the patients that are in 
that system. And it's--we're seeing progress.
    We are doing a much better job dealing with those families. 
We've got a Soldier and Family Assistance Center at every one 
of those warrior transition units. We've taken services that 
were scattered out all across the Army and across the private 
sector, and we've brought them all together. And little things, 
like picking up the family at the airport, to bringing them in, 
meeting their economic needs, meeting their personal needs, 
their psychological needs, and in many cases, their financial 
needs.
    And we've made tremendous progress in not only the patient 
care for those soldiers wounded, ill, and injured, in 
supporting the families, and also making sure that the needs of 
those soldiers surface through ombudsmen. We have a training 
program for the people that represent them in the disability 
system.
    But fixing--we do not have--one of the primary goals of 
Dole-Shalala was one physical and one rating system, and the 
pilot out here does have one physical for them. And we take the 
results of that physical, and the VA takes results of that 
physical. So the pilot combines the two.
    But we have not, as a Government--and it's not just the 
DOD--designed the system to accomplish everything Dole-Shalala 
wants to accomplish in that regard. But in patient care, I 
believe that we have accomplished what Dole-Shalala asked us to 
do.
    Senator Mikulski. Well, thank you very much for that kind 
of update, and we're going to pursue this more in military 
medicine. But I just wanted to say to you, to DOD budgeteers, 
to this subcommittee, you know what we're welcoming back--and 
some of the injuries are so profoundly severe that we're in 
this for 30 or 40 years, in terms of this family support. This 
isn't just 30 days and 60 days and so on.
    So I think we've made a beginning, and I think we've got 
the right people in place to really move this, and we'll 
continue this discussion. Because one of the ways of 
recruitment is, ``What happens to me if something happens to 
me?'' And as you know, you not only recruit the soldier, you're 
recruiting the family of the soldier. And those are the 
questions, which is Charlie or Jane, ``What happens if 
something happens to you?''
    Mr. Geren. Right.
    Senator Mikulski. So it will be a conversation we'll 
consider. Thank you very much, Senator Murray. I know you'll 
ask questions.
    Mr. Geren. And thank you for your interest in that, 
Senator. Because you're right. It is a long-term challenge.
    Senator Mikulski. And we'll have further conversations.
    Mr. Geren. And I'd just like to mention, too, you've 
mentioned General Schoomaker, and he's done an outstanding job 
as Surgeon General. General Pollock, who was the interim 
Surgeon General, also did an excellent job of taking that 
crisis situation and helping us work through that transition. 
And I think General Pollock, General Schoomaker, General 
Tucker, and the hundreds of people who have worked with them, 
we've seen extraordinary leadership.
    Soldiers take care of soldiers. That's what they do. You 
strip away everything else about the Army, and that's what 
soldiers do. And when we learned about this problem, soldiers 
stood up, they demanded action, and they took action. And I'm 
proud of what the soldiers have accomplished. We're not where 
we want to be, but you can count on soldiers taking care of 
soldiers.
    Senator Murray. And I would say to my colleague, Senator 
Mikulski, that I recently visited Madigan in Fort Lewis, and 
there are significant--better conditions than we had 1 year 
ago. And my hat's off to all of them. The staff ratios, the 
facilities themselves, the Family Assistance Center helping 
soldiers get their way through.

                      MENTAL HEALTH PROFESSIONALS

    A warning shot, we do have a lack of professionals to be 
able to recruit, and I will submit a question for you on that, 
whether you do have or not enough people in the pipeline, 
particularly in the psychological healthcare professionals, to 
be able to fill those billets as we move forward on that, and I 
will submit that question for the record, because time is 
running out.
    But I think that we're doing good, but we better we'd 
better be looking at whether or not we have enough qualified 
people and have the resources.
    Mr. Geren. The answer is no. We do not have enough. We 
don't. It's a shortage, particularly in mental health 
professionals, and I wanted to answer it in this open session, 
because it is one of our most important needs. It's not a 
question of resources. And, in the Congress, you all have given 
us some authorities that are helping us, both with bonuses and 
direct hires.
    But particularly for the Army, many of our installations 
are in rural areas, and they're underserved by mental health 
professionals. And we depend not only on what we have in the 
Army, but TRICARE. And that is an area that we need to continue 
to grow internally, and develop externally ways to access the 
mental health professionals. It's a real challenge for us.
    Senator Murray. I agree. And we need to really be talking 
about that. Let me go back, Secretary Geren, and kind of follow 
up on a little bit of what we're hearing. I think we're still 
in--really trying to recover from a lot of the poor planning 
that went into the length of the combat operations. I mean, 
we've been 7 years in Afghanistan, coming up on 5 years in 
Iraq.
    You've both talked about the tours of duty being too long, 
the dwell time too short. We've seen the evidence of strain on 
our soldiers and our families. And I have a real concern about 
the slow change of the tide regarding the perception and 
attitude of psychological health.
    Now, I heard you talk a lot about a number of different 
programs. That's great. But I want to know what we're doing to 
really change the attitude about how we deal with psychological 
health.

                    SEEKING MENTAL HEALTH TREATMENT

    Mr. Geren. Yeah. We recognize in the Army the stigma 
associated with getting--seeking help when you have any mental 
or emotional issues is a real problem. And we have initiated a 
number of different efforts to try to address that. I think the 
most significant one of all is our program to require literally 
every single soldier in the Army, all 1 million soldiers as 
well as all Department of the Army civilians, to take a course 
on how to spot the symptoms of and seek treatment for PTSD and 
TBI. We've got a little over 800,000 of the 1 million soldiers 
who've taken that course. And I think more than any other 
single thing that we do, that is going to help us address the 
stigma issue.
    Every single soldier understands that this is a problem 
that soldiers have. It's something that you--we have a system 
in place to help you step up and deal with it. And we've seen--
we do these tests, mental health assessment tests. We just 
finished our fifth one. And, very encouragingly, we've seen 
that the stigma associated with seeking help for mental health 
problems is going down. So we've actually seen the needle move 
on this issue.
    But we've also provided ways for soldiers who--and family 
members--who don't want to identify themselves to seek mental 
health anonymously. And then we have a program that allows them 
to do that, as well.
    But we recognize that. In the private sector, the stigma of 
getting mental help is a problem, probably in a military 
culture it's a bigger problem. But I think that this chain-
teach, this million soldier chain-teach, not only is going to 
change our Army, I think it could change all of society.
    But we are seeing a different attitude. We're also moving 
more aggressively to help soldiers identify their mental health 
issues for themselves, through pre-deployment assessments and 
through post-deployment assessments. And Madigan was one of the 
first to initiate the face-to-face interviews upon 
redeployment. So you have an interview, and you ask questions 
that will draw out the possibility of some mental health 
concerns, and then we proactively deal with them. So we're 
making progress, but we're not where we want to be.
    Senator Murray. I appreciate that. We've got to stay on it. 
It's more than just saying, ``I know what the symptom is.'' It 
is actually saying, ``It's not only okay to ask for help, but 
that you must ask for help. And if you do ask for help, they're 
won't be any retribution. You won't lose your job. You won't 
lose your status. People will still respect you.'' I mean, 
it's----
    Mr. Geren. Absolutely.
    Senator Murray [continuing]. It's a large cultural issue--
--
    Mr. Geren. It certainly is.
    Senator Murray [continuing]. We have to continue to focus 
on. And I know that you've probably seen the articles, 
Washington Post had an article regarding the increasing number 
of suicides. In 2007, the number of active duty soldiers that 
took their own lives was 121, a 20 percent increase from 2006. 
A Department of Veterans Affairs analysis found that Guard and 
Reserve members accounted for 53 percent of veteran suicides 
from 2001, when the war in Afghanistan began, to the end of 
2005.
    The repeated deployments, the length of time on ground, the 
stress on the families, we know all has a contributing factor. 
Can you talk to me specifically about suicides and what you are 
doing to try and address that issue?
    Mr. Geren. We see the suicide numbers as a great challenge 
to us as an entire Army. We have what we call a balcony brief 
every week, in which we bring all of the senior leaders of the 
Army together, many of which have nothing to do with mental 
health issues or anything to do with delivery of healthcare. 
And we have the suicide statistics are in front of that entire 
audience.
    We want everybody in the Army to know that the problem of 
suicide is the responsibility of everyone in the Army.
    General Schoomaker has led efforts. We have the General 
Officer Steering Committee to deal with it, to initiate 
programs. We've been studying the problem, and try to 
understand, what are the factors that push somebody to that 
point? And the issues are the same in the Army as they are on 
the outside. It's mostly failed relationships. It's other major 
personal disappointments, coupled with depression.
    And we are trying to train our small unit leaders to 
identify those symptoms earlier, to stay close to their--the 
young--or the men and women that are below them, more education 
programs for chaplains. We are in the process of doing a study 
of all the soldiers that are in our healthcare system to try to 
identify trends that identify, before it happens, somebody 
that's inclined to harm themselves.
    And taking lessons learned from this study and applying it 
across the force so we can start spotting some of these factors 
before they become a crisis. I think the Chain-Teach Program, 
teaching people to get mental health when you start 
experiencing some of these emotional problems, will go a long 
way toward helping that.
    But we've seen the rate of suicides double since 2001. And 
I can assure you, every person in the Army--uniform and 
civilian--is charged with helping us address this and turn 
those numbers around.
    Senator Murray. Well, General Casey, maybe you can talk a 
little bit about the National Guard and Army Reserves, in 
particular. We're seeing a number of those members come home 
and needing assistance in re-integrating into civilian life. 
And oftentimes, it's onesies or twosies, it isn't a whole unit, 
that they come back by themselves and often go to rural 
communities.
    They need psychological counseling. They need healthcare. 
They need help with family issues.

                  YELLOW RIBBON REINTEGRATION PROGRAM

    I know that last year the National Defense Authorization 
Act established the Yellow Ribbon Reintegration Program. But 
there's no funds. No one asked for any money for that, for 
resources to implement it. And I wanted to know if you have 
received from the Department of Defense any implementing policy 
or funding for the Yellow Ribbon Reintegration Program.
    General Casey. Yeah. I can't answer that question about the 
Yellow Ribbon Program.
    Senator Murray. Mr. Secretary?
    Mr. Geren. Secretary England, Deputy Secretary England, 
spoke to that this past week. There were no funds attached to 
it, but he--speaking for the Department, and not just for 
individual services--said it's a commitment that we will 
embrace and we'll execute.
    Senator Murray. Have we seen any policy on how to implement 
it?
    Mr. Geren. No, I have not. No. But Secretary England spoke 
to it recently, and as we work through the many new initiatives 
from the authorization bill, we will act on them. And he 
committed the Department to do that.
    General Casey. Can I say, Senator, though----
    Senator Murray. Yes.
    General Casey [continuing]. That we're not waiting for 
that, or money, before moving out on trying to help the 
National Guard and Reserve soldiers reintegrate. It's part of 
our overall soldier and family support covenant. And, as I said 
earlier, the dispersed nature of where these young men would 
then go when they return makes it more difficult.
    And one of the programs we have is an integrated family 
support network online that allows--that will allow soldiers to 
enter a ZIP Code of a service they require and find out where 
to go. But the mental health provider problems that you raise--
--
    Senator Murray. Uh-huh.
    General Casey [continuing]. Are more difficult for the 
Guard and Reserve, again, because of the dispersed nature. And 
it's going to take a lot more focused effort to help them.
    The last thing I'd say on that is they aren't standing by 
either. There's been a great program piloted up in Minnesota, 
by the Minnesota Guard, that helped bring folks back in. And a 
lot of the other States are copying that. But we're committed 
to our Guard and Reserve soldiers.
    Senator Murray. Okay. General Casey, I just wanted to ask 
you quickly in my last minute here. You and I have talked about 
families and the importance of families. Training them to 
recognize issues, empowering them to be able to help their 
returning soldier when they come home. If we don't deal with 
the families, we are not going to be able to recruit soldiers 
in the future.
    That's the Army we have today. It's the Army we have to pay 
attention to. Magic wand, what would you do? What would you 
tell us we should be doing? A couple of things to support 
families that we're not doing today that we need to focus on to 
help them with the real challenges that they have.

                          ARMY FAMILY COVENANT

    General Casey. The main thing we need to do is to continue 
to put the resources, the money, against the family programs. 
As I mentioned, we've doubled that last year, and we're 
doubling again in this 2009 budget.
    The spouses that we went around and talked to said, 
``General, we don't need a bunch of fancy new programs. We need 
you to fund the ones you have and standardize them across the 
installations.'' And as we look into it, the reason they 
weren't standardized is because the money was distributed 
differently.
    Senator Murray. Uh-huh.
    General Casey. The second thing that comes right to the 
front is housing. And there's a significant sum of money in 
this 2009 budget for Army family housing into privatized 
additional houses. As I said in my opening statement, we're up 
over 80,000 privatized homes now. And the soldiers and their 
families love them.
    The third thing that we have to invest in and work on is 
exactly the issues you raised. It's the access to quality care, 
particularly the mental healthcare. What I'm finding myself 
doing, Senator, is going right down the five elements of the 
family covenant. And the last two are educational opportunities 
and childcare opportunities for the youth, and educational 
opportunities and jobs for spouses.
    Anything you can do in any of those areas, particularly, 
the last one, I think, also would particularly be helpful.
    Senator Murray. Okay. Thank you very much, both of you.
    Mr. Geren. Thank you, Senator.
    Senator Inouye. This discussion couldn't fail but to remind 
me of my service in World War II. And it was a different war. 
For example, in my regiment, only 4 percent had dependants, 96 
percent were 18-year-old youngsters. On top of that, we had no 
CNN that would give you live reports on action happening right 
there.
    You could see a lot of explosions. Nor did we have cell 
phones and BlackBerries. As a result the only thing we had to 
communicate with each other was the Postal Service. And it took 
anywhere from 3 weeks to 6 weeks for mail to go from France to 
Hawaii and back. And we did not have these return home every 
year.
    As a result, you didn't have someone grabbing you and 
saying, ``Honey, don't go back again.'' Or your son telling 
you, ``Daddy, stay home.'' So we were lucky. The present 
generation is beset with problems that modern America has 
created. But we have a challenge ahead of us. We've got to do 
something about that.
    But as long as wives see their husbands on CNN standing in 
harm's way, it's going to shake them up. And when men receive 
telephone calls from their sons or a little baby saying, 
``Daddy, come home,'' that will shake up anyone. So there are 
some of us who appreciate that, and we want to do something 
about it.

                     ADDITIONAL COMMITTEE QUESTIONS

    I thank you, Secretary and General Casey, for the service 
to our Nation and for the testimony. And I can assure you that 
this subcommittee will be working with you in the months ahead. 
And, if we may, we'd like to submit some follow-up questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
          Questions Submitted to General George W. Casey, Jr.
               Questions Submitted by Senator Ted Stevens
                     fiscal year 2008 supplemental
    Question. I am concerned that the Army's personnel and operation 
accounts will not have the resources needed to support our troops 
without the timely passage of the remaining fiscal year 2008 
supplemental request. When is the latest you will need to have the 
supplemental funds in hand, and which accounts will be most 
significantly impacted?
    Answer. We need Congress to take action prior to the end of May. 
This will provide enough time to process and distribute funds without 
interruption to ongoing operations. We are most concerned about 
Military pay for the Active and Guard Force. These accounts will run 
out of money in mid-June. The Operation and Maintenance account for the 
Active and Guard will run out of money in early to mid July.
                      funding shortfalls for reset
    Question. Do you anticipate any production delays in items critical 
for equipment reset that will not be accomplished because of funding 
shortfalls?
    Answer. The timing of the receipt of reset funding is critical. The 
Army anticipates reset funds to be received in the May-June time frame. 
Production lead-times and deliveries are dependent upon receipt of 
these funds. Delays will be experienced if Army does receive reset 
funds as scheduled.
                         future combat systems
    Question. What efforts are you making to get Future Combat System, 
or FCS, technologies deployed sooner and what are you hearing from 
soldiers in the field on the need for FCS capabilities?
    Answer. There are more than 75 Future Combat System (FCS) hardware 
tests and evaluations ongoing across the country. The FCS Spin Out 1 
prototypes will be tested by the Army Evaluation Task Force (AETF) 
Soldiers in mid-2008 at Fort Bliss, Texas and White Sands Missile 
Range, New Mexico. The Army anticipates fielding the Spin Out 1 
technology to operational heavy brigades in 2010. The prototypes being 
tested include: Non Line of Sight (NLOS) Launch System; Urban 
Unattended Ground Sensors; Tactical Unattended Ground Sensors; CS 
Network Integration Kits for Abrams, Bradley and High Mobility Multi-
purpose Wheeled Vehicle (HMMWV) platforms. Additionally, the Small 
Unmanned Ground Vehicle (SUGV) and the Class I Unmanned Aerial Vehicle 
(UAV) will be evaluated to assess the potential for accelerated 
fielding to the current force. If the SUGV and Class I UAV are assessed 
as militarily useful, the Army anticipates deploying these systems 
during the same 2010 timeframe.
    The following FCS-like technology is currently being used in Iraq 
and Afghanistan: The Gas Micro Air Vehicle (gMAV), an early precursor 
to the FCS Class 1 UAV, has been invaluable in Navy explosive ordnance 
disposal (EOD) operations in Iraq and is planned for use by 25th 
Infantry Division Soldiers in urban warfare operations in Iraqi this 
year.
    The Packbot being used by Soldiers and Marines in Iraq and 
Afghanistan is the precursor to the FCS SUGV. This man-packable robot 
has been invaluable to Soldiers during urban warfare and EOD 
operations.
    The Excalibur artillery round that is being developed to use in FCS 
NLOS-C is currently being used by artillery units in Iraq. The units 
have had stunning success with this advanced round.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                     joint high speed vessel (jhsv)
    Question. General Casey, based on last year's budget request, 
funding was appropriated for a Joint High Speed Vessel, and I 
understand your fiscal year 2009 requests funding for procurement of a 
second Joint High Speed Vessel. I am told these vessels are highly 
flexible and can operate in shallower ports than traditional larger 
vessels. Would you share with the subcommittee how you plan to use 
these vessels and how they may assist us in the Global War on 
Terrorism?
    Answer. The Joint High Speed Vessel (JHSV) provides the Joint Force 
Commander (JFC) with an intra-theater mobility asset that enables 
rapid, flexible and agile maneuver of intact combat-ready units and 
transport of sustainment supplies between advance bases, austere and 
degraded port facilities or offload sites, austere littoral access 
points, and the Sea Base. JHSV will be capable of self-deploying 
worldwide to the theater of operations. Combatant Commands (COCOMs) 
identify high speed intra-theater surface lift as a critical gap in 
their ability to support the Global War on Terrorism (GWOT), their 
Theater Security Cooperation Program (TSCP), and current operations.
    The GWOT counters a plethora of new asymmetric threats designed to 
erode, paralyze and marginalize U.S. power. To meet these 
unconventional challenges, U.S. Joint Forces must be prepared to 
rapidly plan and execute a broad range of joint, small scale 
contingency operations, while maintaining the capability to prevail in 
major combat operations. The keys to success in many operations remains 
the ability to quickly maneuver sufficient forces into critical 
positions, and to provide sustained logistics support until a decisive 
victory is achieved. Intra-theater lift will be especially crucial in a 
future conflict in which enemies may be able to obstruct or deny 
altogether the use of fixed entry points such as airfields and 
seaports. Shore infrastructure and support such as cranes, tugs, and 
other port services will not exist or be available in many of the 
austere ports where future JFCs will need to operate. Therefore the 
JHSV's ability to access non-traditional, shallow draft ports will be 
essential for the delivery of forces and logistics support.
                       joint cargo aircraft (jca)
    Question. General Casey, there has been some discussion recently 
between the United States Air Force and the United States Army about 
the need for and the role of the Joint Cargo Aircraft. Can you 
elaborate on the Army's need for and use of the Joint Cargo Aircraft?
    Answer. The Chief of Staff of the Army and Chief of Staff of the 
Air Force have agreed to examine Intra-theater Air Lift Roles and 
Missions as part of the Quadrennial Defense Review. In the most recent 
Air Force-Army Warfighter talks, we recommitted our Services to the 
success of the C-27 program in its current format, on the current 
fielding timeline, and in accordance with the current beddown plan. 
Together, both services will work any roles and missions issues that 
may arise.
    The importance of the JCA Program to the Army cannot be 
understated. The JCA enables the Army to meet its inherent core 
logistics functions as described by Joint Publication 3-17 and Joint 
Publication 4-0. The primary mission of the Army JCA is to transport 
Army time-sensitive mission-critical (TSMC) cargo and personnel to 
forward deployed units, often in remote and austere locations, commonly 
referred to as ``the last tactical mile''. Because of the critical 
nature of this cargo to the success of the tactical ground commander's 
mission and the short-notice of its need (usually less than 24 hours), 
lift assets must be in a direct support relationship to provide the 
necessary responsiveness.
                                 lakota
    Question. General Casey, the first Light Utility Helicopter Lakota 
aircraft have been delivered, including the first ``Made in the USA'' 
airframes from the production line in Columbus, MS. Based on the budget 
request, funding was appropriated for production of 43 aircraft. I 
notice in your budget request submitted earlier this month you reduced 
your request to 36 aircraft for fiscal year 2009, and plan to make 
further reductions in fiscal year 2010 to 25 aircraft, and in fiscal 
year 2011 you make additional reduction to 18 aircraft, before you 
increase your request to 41 aircraft in fiscal year 2012 and 43 
aircraft in 2013.
    General Casey, can you share with the subcommittee how these 
aircraft have performed in the field?
    Answer. The Light Utility Helicopter (LUH) program is successfully 
executing the Army's transformation strategy. The LUH program is 
meeting all cost, schedule and performance targets and is now in Full 
Rate Production. A total of 85 LUHs are now on contract with 20 
aircraft delivered. The LUH is now in service at the National Training 
Center, Joint Readiness Training Center, and Fort Eustis, Virginia, 
performing medical evacuation, VIP and general support missions.
    Question. How has this capability benefited our National Guard and 
Reserve units?
    Answer. The Light Utility Helicopter (LUH) program greatly benefits 
our reserve components. Of the 345 aircraft we plan to procure, 200 
will be fielded to the Army National Guard (ARNG). These new aircraft 
will divest legacy, aging, and less capable OH-58s and UH-1s. The 
immediate impact will be a more ready force, that remains in the 
states, ready for response to situations in permissive environments, 
principally within the Continental United States (CONUS). This year, we 
will field aircraft to the Eastern Area Army National Guard (ARNG) 
Training Site as well as ARNG units in Mississippi and Louisiana.
    Question. Why would the Army request a production profile 
consisting of 43 aircraft last year, go down to 18 over the next three 
years and then back up to 43 aircraft in 2013? I cannot believe this is 
the most efficient way to procure this aircraft, and I am concerned how 
this might affect fielding of the platform and stability of the 
workforce.
    Answer. We acknowledge the challenging Light Utility Helicopter 
(LUH) procurement profile and we will attempt to address it within the 
fiscal means available within the Army Aviation investment portfolio. 
We appreciate your fiscal support for LUH, your efforts to rapidly 
bring this new commercial, off the shelf solution into the Army 
inventory, providing us a means to transform our aviation forces and 
retire our Vietnam-era helicopters as swiftly as possible.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
     sustain soldiers and families in an era of persistent conflict
    Question. How long can our soldiers sustain the current effort in 
Iraq and Afghanistan?
    Answer. The cumulative effects of the last six-plus years at war 
have left our Army out of balance. The impacts on Soldiers and Units of 
increasing time deployed and decreasing time between deployments are 
visible in several different areas: training, readiness, and other 
indicators. The Army has a backlog of Soldiers who have not attended 
the Professional Military Education schools commensurate with their 
rank. Units are only able to train to execute counter-insurgency 
operations rather than full-spectrum operations. Other indicators are 
worrisome: the competitive recruitment environment with a declining 
number of qualified potential recruits, the increase in the number of 
Soldiers with post traumatic stress disorder (PTSD), and an increasing 
number of suicides. However, we assess that we will continue to recruit 
and retain enough Soldiers to meet our endstrength requirements. We 
have a plan that will, with Congressional help, restore balance to our 
force. We've identified four imperatives that we must accomplish to put 
ourselves back in balance: sustain, prepare, reset and transform. 
Additionally, the Army has accelerated its planned growth of Soldiers 
and Units and we expect to complete our growth by the end of 2011. In 
this era of persistent conflict, the nation needs to field fully 
prepared and resourced forces wherever required.
    Question. What is the projected impact on our Soldiers and their 
Families?
    Answer. The long term impact experienced by Soldiers and their 
Families resulting from Global War on Terror operations will be 
significant. The Army has aggressively fielded multiple prevention and 
treatment programs in an effort to successfully transition Soldiers 
from combat experience into a continued high quality of life. We have 
developed pre and post deployment Battlemind training, as well as 
Battlemind training modules for spouses. We have produced family 
support videos targeting the full range of dependent age groups, from 
toddlers to teenagers. In 2007, the Army distributed a mild Traumatic 
Brain Injury/Post Traumatic Stress Disorder (TBI/PTSD) video as part of 
the chain teach program for the entire force, with several versions 
available to Families. Based on internal analyses, such as the Mental 
Health Advisory Teams, the Army Medical Department is hiring over 340 
additional behavioral health providers and increasing the number of 
marriage and family therapists.
    Question. Please tell this committee how soldiers can continue to 
deploy year after year with an all-volunteer force?
    Answer. Per MAJ Phil Young, the answer to this question is no 
longer necessary.
                      future combat systems (fcs)
    Question. I have been and still am a proponent of modernization, 
specifically through the Army's Future Combat System (FCS). I 
understand that near-term Army needs threaten the funding of FCS. 
Secretary Gates stated that program affordability was in question. I 
know you received several questions from my colleagues on the Armed 
Services Committee reference FCS, but I would like to know: What is 
your opinion on the importance of sustaining the funding ramp for FCS?
    Answer. Continued investment in FCS is essential to deliver needed 
capabilities to combat forces deployed today and in the future. 
Investments in FCS have produced technologies that are making a 
difference in combat today. These include advanced vehicle armor being 
used to protect Soldiers in High Mobility Multipurpose Wheeled Vehicles 
(HMMWVs); precursor FCS Unmanned Aerial Vehicles; and robotics being 
used to locate and defeat Improvised Explosive Devices.
    Stable funding for FCS is vital for keeping the Army's principle 
modernization effort on track which keeps providing increased 
capabilities to our Soldiers. Cuts to the FCS program threaten to delay 
the delivery of needed capabilities to the force. FCS is about one-
third of our equipment investment strategy and currently less than 
three percent of our fiscal year 2009 budget request, but is key to 
building the full spectrum capabilities we need in the 21st Century. We 
are leveraging this investment to provide FCS-enabled capabilities to 
the current force through Spin-outs, but we need to get these 
capabilities to our Soldiers faster.
    Question. What is the impact to today's Soldiers of cutting FCS 
funding and moving program objectives to the right?
    Answer. The impact to Army modernization and to the Soldier will be 
an ever-increasing delay in providing urgently needed modern 
capabilities while causing the Army to spend valuable resources on 
maintaining an ever-aging fleet of combat platforms.
    The immediate impact and effect of the FCS funding reductions will 
result in delaying the early insertion of FCS (BCT) SO1 capabilities 
into the hands of our Soldiers (e.g., AN/GRS-9 and AN/GRS-10 Tactical 
and Urban Unattended Ground Sensors, the XM1216 Small Unmanned Ground 
Vehicle, the XM156 Class 1 Unmanned Aerial System and the XM501 Non-
Line-of-Sight Launch System). Program funding reductions will hamper 
the maturation of these critical SO1 technologies and delay the 
fielding of the capabilities urgently requested by commanders in Iraq 
and Afghanistan for Warfighters. Developing and fielding these 
capabilities now allows our Soldiers to stay ahead of our adversaries' 
growing capabilities.
                    deploying medically fit soldiers
    Question. We spoke briefly about the physical and mental health of 
our Soldiers. The Denver Post recently reported that Fort Carson sent 
soldiers who were not medically fit to war zones in order to meet 
``deployable strength'' goals. I'm not singling out Fort Carson. As a 
matter of fact, the post Commander has taken several steps to improve 
the negative image created by these reports. I know that some soldiers 
with limited duty profiles volunteer to return to Iraq and Afghanistan 
to serve their unit in an administrative role. Others are deployed to 
neighboring countries like Kuwait in support of the War, with an 
understanding that they will continue to receive medical care at that 
site. Can you confirm that the Army is not deploying soldiers medically 
unfit for duty in order to meet their deployable strength goals?
    Answer. Soldiers who do not meet medical retention standards should 
be referred to a Medical Evaluation Board for a fitness for duty 
determination. A commander should never knowingly deploy a Soldier 
determined to be medically unfit. Not only would it endanger the 
Soldier, whose safety is entrusted to the commander, but it threatens 
the mission. If Soldiers cannot perform their duties, they would have 
to redeploy, leaving their units without their services until 
replacements could be deployed.
    Army Regulation (AR) 40-501, Standards of Medical Fitness, dated 
December 14, 2007, provides guidance for healthcare providers and 
commanders to determine if a Soldier is medically fit to deploy. The 
regulation states that some Soldiers, because of certain medical 
conditions, may require administrative consideration when assignment to 
combat areas or certain geographic areas is contemplated to ensure that 
they are only required to perform duties within their medical 
capabilities, and without creating an undue hazard to their health and 
well-being or the health and well-being of others.
    Medical standards for deployment are meant as general guides. The 
final decision is based on clinical input and commander judgment, which 
takes into account the geographical area in which the Soldier will be 
assigned and the potential environmental conditions the Soldier may be 
subjected to.
    Question. When limited profile soldiers are deployed, is there a 
guarantee that they will receive adequate care to overcome their 
medical issues?
    Answer. A Soldier with profile limitations should deploy only if 
the Commander can meet the limitations of the profile and ensure 
adequate medical care in theater. If a Soldier requires a certain level 
of medical care while deployed, the Unit Commander should contact the 
Theater Surgeon, who is the most senior physician in the combat 
theater, to ensure the required care is available. Commanders are 
charged with the care and oversight of their subordinates. Therefore, 
they have an obligation to ensure that the limitations of a Soldier's 
profile will be met in any environment to which the Soldier is 
deployed.
    The disposition of Soldiers with limited profiles in a deployed 
environment is outlined in Army Regulation (AR) 40-501, Standards of 
Medical Fitness, dated December 14, 2007, which states that profiling 
officers should provide enough information regarding the Soldier's 
physical limitations to enable the non-medical commander and Army Human 
Resources Command to make a determination on individual assignments or 
duties.
    Question. Is there pressure placed on junior commanders by senior 
level officers to meet unit strength requirements in support of a 
deployment? If so, are junior leaders taking too much liberty with 
their profile soldiers?
    Answer. It is a common misperception that a Soldier with a limiting 
physical profile is non-deployable and yes, ultimately the Commander 
decides whether or not a Soldier deploys. However, physical profiles 
that state ``non-deployable,'' ``do not deploy'', or ``no field duty'' 
are invalid. Profiles delineate physical limitations of the Soldier, 
not whether or not the Soldier is deployable.
    Deploying a Soldier that is not capable of supporting the mission 
decreases mission accomplishment. It would be counterproductive to the 
command to deploy Soldiers that cannot contribute to mission 
accomplishment.
    Question. How can the Army fix the situation?
    Answer. Educating leaders and Soldiers and improving communication 
are the best ways to manage this situation. Deploying an unfit Soldier 
endangers the Soldier and the mission. Our process for identifying 
Soldiers who should not deploy for medical reasons is sound. Problems 
can occur if Commanders deviate from the process or do not communicate 
with health care providers. Army Regulation 40-501, Standards of 
Medical Fitness, dated December 14, 2007, details the joint 
responsibility of the Healthcare Provider and Commander to ensure the 
medical fitness of deploying Soldiers.
                      mental health practitioners
    Question. An increasing number of Soldiers returning from combat 
duty have been diagnosed with varying degrees of Post Traumatic Stress 
Disorder (PTSD). There is no doubt that there is a relationship between 
suicide rates and PTSD. We must make sure that our men and women have 
access to the care they deserve when they return from combat. My staff 
has been investigating the status of behavioral health care throughout 
the military and has consistently found that behavioral health care 
assets remain in short supply. What is the Army doing to alleviate the 
shortage?
    Answer. The Army is taking action on several fronts to alleviate 
the shortage of behavioral health providers. The backbone of our 
behavioral health services are our active duty providers, both in the 
theater of operations and in our military treatment facilities. These 
behavioral health providers are among the most highly deployed of any 
of our specialties, supporting our Combat Stress Control Teams and 
other units in Iraq and Afghanistan. To encourage active duty providers 
to join and stay in the Army, we offer financial incentives such as 
accession bonuses, retention bonuses, loan repayment, and education 
scholarships. The Army also offers several programs to recruit and 
train mental health professionals in uniform. These programs include 
the Clinical Psychology Internship Program, a Masters of Social Work 
program, a Clinical Psychology Training Program and a new Adult 
Psychiatric Mental Health Nurse Practitioner Program. Participants 
remain on active duty during these programs and incur additional active 
duty service obligations.
    In 2007, we identified a significant gap between our behavioral 
health manpower requirements and the increased patient care demand. As 
a result, in June 2007, the Army authorized the hiring of 275 
additional behavioral health providers in the United States. We have 
since identified additional overseas requirements that we are working 
to fill. As of March 7, 2008, we have hired and placed 147 additional 
providers. Unfortunately, the national shortage of behavioral health 
providers poses serious challenges to our recruiting efforts. Although 
we offer salaries based on the market conditions, we are still 
struggling to find providers in some of our remote locations.
    The Army is also training primary care providers to help alleviate 
the pressure on our behavioral health providers. In 2006, we completed 
a successful pilot program at Fort Bragg, North Carolina called 
RESPECT-MIL that has been expanded to 15 installations. RESPECT-MIL is 
a program designed to decrease stigma and improve access to care by 
providing behavioral healthcare in primary care settings.
    In addition to traditional behavioral health care settings and 
primary care settings, we are also expanding other portals to 
behavioral health services. For example, we are planning to hire an 
additional 40 substance abuse counselors as well as more than 50 
marriage and family therapists. Finally, we are adding 99 social 
workers to our Warrior Transition Units.
                  national guard provisions of ndaa 08
    Question. As you know, the Congress continues to provide additional 
funds for Guard equipment. This year will be no different and I will 
join with Senator Leahy in asking our colleagues to provide funding for 
additional full time manning. Additionally Senator Leahy and I were 
successful in getting portions of our Guard Empowerment legislation 
into law. Do you have any problems supporting the legislation that was 
passed in the fiscal year 2008 National Defense Authorization Act in 
support of strengthening the role of the National Guard within the 
Pentagon? If so, please identify those portions of the legislation that 
you find problematic?
    Answer. The intent of the National Guard Empowerment provisions 
incorporated into the National Defense Authorization Act for Fiscal 
Year 2008 (NDAA 08) was to ensure that the National Guard would have a 
voice in policy and budget processes and decisions which effected the 
Guard, or which would benefit from the Guard's expertise and 
perspective. The Army has included the National Guard in its policy and 
budget processes for several years, and the Director of the Army 
National Guard and the Army National Guard staff are engaged as full 
partners in the Army's policy and budget decisions.
    The Army participated fully in the work groups the Office of the 
Secretary of Defense (OSD) established last year to address, among 
other things, revising the National Guard Bureau (NGB) Charter and 
clarifying the NGB's role in Defense Support to Civil Authorities--both 
of which are addressed in NDAA 08. Those OSD work groups were formed in 
anticipation of the NDAA 08 changes to the roles and responsibilities 
of the National Guard, and in response to the Secretary of Defense's 
instructions to implement recommendations made by the Commission on the 
National Guard and Reserves in March 2007. The Army is pleased to have 
been a part of those Department of Defense efforts.
    The Army remains confident in NGB's ability to coordinate and work 
closely with States and other agencies for non-federal and State 
missions that rely primarily on the Guard for support. Provisions of 
NDAA 08 appear to enhance NGB's ability to do so without diminishing 
its responsibilities to the Secretaries of the Army and the Air Force 
or reducing its ability to fulfill important dual-mission roles. This 
legislation further supports the Army Reserve and National Guard's role 
in the transition to an operational force. The Reserve Components are 
currently performing an operational role for which they were neither 
designed nor resourced. In order to meet the operational flexibility 
required to sustain the current conflict as well as respond to future 
conflicts, we are transforming how we train, equip, resource, and 
mobilize the Reserve Components to be available for mobilization and 
employment as cohesive units in accordance with the Army Force 
Generation cycle. We need to gain the support of the nation to 
accomplish this while preserving the All Volunteer force and the 
Citizen Soldier Ethos. Therefore, the Army supports the new legislation 
and will work closely with OSD to implement it.
                                 ______
                                 
                 Questions Submitted to Hon. Pete Geren
            Questions Submitted by Senator Richard J. Durbin
                         helmet sensor program
    Question. What is the status of the Army's helmet sensor program as 
it relates to the war's signature wound, traumatic brain injury?
    Answer. The Army has equipped two Brigade Combat Teams (BCTs) 
deploying to Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF) with a helmet sensor that mounts on the Advanced Combat 
Helmet (ACH). The combat helmet sensors will record helmet acceleration 
and pressure data in order to characterize the forces acting on a 
Soldier's helmet during events that may cause traumatic brain injury 
(TBI). The two BCTs are 4th Bde, 101st Airborne (Air Assault) (OEF) and 
1st Bde, 4th Infantry Division (OIF). Units were equipped with helmet 
sensors prior to their deployment and personnel were trained to record 
data during the rotation.
    Question. What is the plan to implement the program Army wide?
    Answer. No decision has been made to implement the helmet sensor 
program Army wide. It is too early to accurately determine the utility 
of the helmet sensor for Soldiers.
    Question. Exactly how will the data collected be used?
    Answer. The Army seeks to constantly improve the performance of all 
protection systems including individual protective systems such as the 
Advanced Combat Helmet (ACH). The Army is also seeking to develop 
improved identification and treatment for head injuries or TBI. Helmet 
sensors will capture valuable data related to the forces acting on a 
Soldier's combat helmet. A currently funded medical research project 
coordinated by the Joint Trauma Analysis and Prevention of Injury in 
Combat Program in support of Program Manager Soldier Survivability will 
assess and validate the fidelity of the helmet sensor data within the 
context of operational events. The validated data will be used in 
studies that attempt to correlate the sensor data with resulting 
injuries. These data may make it possible to develop injury criteria 
and mitigation systems, together with performance standards that are 
necessary to support the development of improved individual protection 
systems, and diagnostic surveillance.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                   contracting task force initiatives
    Question. Secretary Geren, in your 2008 Posture Statement you list 
a number of accomplishments among which are ``Improved property 
accountability by providing Army wide visibility of 3.4 billion items 
valued in excess of $230 billion'' and ``Formed the Army Contracting 
Task Force to review current contracting operations and then 
immediately began implementing improvements.'' How have these 
accomplishments or other initiatives you have undertaken addressed 
corruption, fraud or waste in Iraq and in other operations around the 
globe?
    Answer. The Army has recently taken several initiatives to address 
corruption, fraud or waste in Iraq and in other operations around the 
world.
    First, the U.S. Army Contracting Command (Provisional) has been 
established by consolidating the U.S. Army Contracting Agency and the 
various contracting organizations within the U.S. Army Materiel Command 
(AMC). The Army Contracting Command (Provisional) will eventually be a 
two-star level contracting command including two subordinate one-star 
level commands; the Expeditionary Contracting Command and the 
Installation Contracting Command. This reorganization will enhance 
warfighter support, leverage the use of resources, capitalize the 
synergy of contracting personnel, and establish uniform policies.
    Second, as a result of the Army Contracting Task Force review and 
immediate corrective actions, the Army Contracting Command--Kuwait has 
generated cost savings in the following categories: claims cost savings 
of $13.9 million this fiscal year to date; cost savings of $36.6 
million over four years on new contracts (Non-Tactical Vehicles); cost 
savings of $88.7 million year to date by negotiating undefinitized 
contract actions; cost savings of $33 million to $40 million by 
deobligating unliquidated obligations from 1,689 contracts shipped from 
Kuwait to the United States for review; and cost savings generated by 
Contracting Officer's Representatives (CORs) through improving 
surveillance methods. Example: The COR on a Fuel Storage Contract was 
able to recoup from the contractor $142,000 through enhanced 
surveillance techniques. The contractor was not delivering full loads 
of fuel. The long term solution is to place government fuel meters 
between the delivery truck and the fuel farm to measure the actual 
quantity delivered.
    Third, the Army has increased the scope and frequency of the 
Contracting Operation Reviews that look at contracting organizations to 
ensure contracting activities are following regulations and procedures 
and appropriately addressing emerging issues; including corruption, 
fraud or waste. These reviews are part of the routine examination of 
contracting activities along with audits conducted by the U.S. Army 
Audit Agency and the Army and Department of Defense Inspectors General.
    Fourth, the Army has responded by improving integrated training and 
workforce skills in the areas of expeditionary and installation 
contracting. We have distributed the Joint Contingency Contracting 
Handbook and a Commander's Guide to Contracting and Contract 
Management. We have published a Contractors Accompanying the Force 
Training Support Package. This package is focused on contracting and 
contract management for non-acquisition personnel. Expeditionary/
contingency contracting is being institutionalized in the Army through 
numerous websites and incorporation into training courses for Army 
officers, NCOs, and civilians.
                  fire scout unmanned aerial vehicles
    Question. Secretary Geren, I understand that in an effort to ``spin 
out'' technology developed as part of your Future Combat System, the 
Army stood-up the Army Evaluation Task Force in Fort Bliss, Texas to 
evaluate equipment and prototypes. This was done in an effort to 
provide your current forces enhanced capabilities instead of waiting 
for the whole Future Combat System to be field many years in the 
future.
    I have been informed that Commanders in Operation Iraqi Freedom 
cite Unmanned Aerial Vehicles (UAVs) as one of their most pressing 
needs. And as part of Future Combat System, the Army procured eight 
Fire Scout Unmanned Aerial Vehicles, seven of which have been assembled 
and are sitting in a warehouse.
    Given the creation of this new Evaluation Task Force at Fort Bliss 
and with the pressing need for Intelligence, Surveillance and 
Reconnaissance to help with force protection and other missions, why 
would the Army not load available sensors into these Unmanned Vehicles 
and evaluate this system to determine if your troops on the ground 
could benefit from these assets you already own instead of letting them 
sit in a warehouse until 2014?
    Answer. The Army is considering the feasibility of fielding Fire 
Scouts to the Army Evaluation Task Force (AETF) to conduct 
developmental and system-level testing, as well as to develop tactics, 
techniques, and procedures and concepts of operation in the construct 
of the FCS Brigade Combat Team. The Training and Doctrine Command 
Commander was briefed in March 2008 on several options to accelerate 
the Fire Scout to the AETF and the Army is assessing options to 
accelerate the Class IV to the AETF.
    Due to three consecutive years of Congressional funding cuts to the 
FCS program, the Army is carefully balancing its limited resources to 
meet both current operational requirements and prepare for future 
needs. If the plan to accelerate is approved and resourced, the Army 
will learn valuable tactics, techniques, and procedures while providing 
critical risk reduction benefits to the Fire Scout program.
    Currently, the Fire Scout Air Vehicles procured to support the FCS 
System Development Demonstration phase of the program are at Moss 
Point, Mississippi, going through FCS Class IV UAV Phase I assembly. 
Phase I is part of a two-phase final assembly process which consists of 
installing and integrating the Global Positioning System/Inertial 
Navigation System, Identify Friend or Foe System, Radar altimeter, 
vehicle management computer, and associated brackets, cables and 
equipment to receive Phase II equipment.
    FCS Class IV UAV Phase II assembly begins in 2nd quarter fiscal 
year 2010 and runs through 4th quarter fiscal year 2011. This process 
consists of integrating FCS Integrated Computing System, Airborne 
Standoff Minefield Detection System, Synthetic Aperture Radar/Ground 
Moving Target Indicator sensor, communications suites, data-links, and 
other FCS-unique equipment.
    The FCS Class IV Fire Scout milestones remain well integrated 
within the FCS program. Key milestones include the Class IV Preliminary 
Design Review scheduled for December 2008, Class IV Critical Design 
Review scheduled for November 2009, and Class IV First Flight scheduled 
for January 2011.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
                          airlift requirements
    Question. The initial Army plan was to transport FCS vehicles 
aboard C-130 aircraft. Now that this is no longer an option due to 
weight growth, what is the Army doing to determine its future airlift 
requirements for FCS?
    Answer. Within the Future Combat Systems (FCS) Family of Systems, 
the Manned Ground Vehicle (MGV) is the only type not capable of 
transport on a C-130 due to weight and cube growth. The current concept 
for MGV transport for strategic and operational distances is on C-17 
and C-5 aircraft. This will stay constant as the Army fields the 15 FCS 
equipped Brigade Combat Teams.
    For future operational and tactical MGV airlift requirements, the 
Army's Joint Heavy Lift (JHL) program was being developed to support 
the concept of Mounted Vertical Maneuver. Simultaneously, the Air Force 
was developing the Advanced Joint Air Combat System (follow-on to the 
C-130) concept which is their next generation intra-theater aircraft. 
As a result of the 2008 Army-Air Force Talks, the JHL Initial 
Capabilities Document (ICD) will be merged with the Air Force Future 
Theater Lift ICD which will result in a material solution acceptable to 
both services. The Joint ICD is expected to be delivered to the Joint 
Requirements Oversight Council by fall of 2008. The ability to 
vertically lift medium weight (MGV, Stryker) loads will remain the 
principle Army requirement for future intra-theater airlift. An 
Analysis of Alternatives comparing known and projected solutions will 
likely be initiated within the next two years.
    Question. Do you believe additional C-17 aircraft are needed?
    Answer. The requirements for C-17 aircraft will be studied and 
analyzed during the conduct of the Mobility Capabilities and 
Requirements Study 2008 (MCRS 08). This study will be co-chaired by 
Office of the Secretary of Defense, Program Analysis and Evaluation, 
and the U.S. Transportation Command. The Army, through the Army Power 
Projection Program, has developed equities regarding current and future 
force projection capabilities in support of Combatant Commanders' 
requirements that must be incorporated into MCRS 08. From an airlift 
perspective, the study must address the requirements for surge airlift 
to move the modular force in accordance with current war plan 
timelines, and the appropriate C-5/C-17 fleet mix to move outsize 
cargo.
    In addition to MCRS 08, the 2008 National Defense Authorization Act 
(NDAA) directs an Airlift Fleet Study be conducted by a federally 
funded research and development corporation to be completed by January 
2009. The 2008 NDAA directs the Secretary of Defense to conduct a 
requirements based study for the proper size and mix of fixed-wing 
intra-theater and inter-theater airlift assets to meet the National 
Military Strategy. The study will focus on military and commercially 
programmed airlift capabilities, and analyze the lifecycle costs and 
alternatives for military aircraft to include the C-17 and C-5.
    Upon completion of the MCRS 08 and the NDAA Airlift Fleet Study, 
the Army will be able to make an informed decision on the number of C-
17s required to meet our strategic mobility requirements.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                       white sands missile range
    Question. I understand that there is no funding in your fiscal year 
2009 request to carry out your December announcement to relocate a 
brigade combat team to White Sands Missile Range as part the of the 
President's Grow the Army plan. What funding is needed for that 
relocation and when will the Army budget for those needs?
    Answer. In accordance with the Secretary of Defense recommendation, 
the heavy brigade will relocate to White Sands Missile Range in fiscal 
year 2013. The cost to construct facilities for a brigade combat team 
(BCT) at White Sands Missile Range is currently estimated to be about 
$506 million and will take approximately two years to complete. The 
$506 million will fund organizational facilities such as unit 
headquarters, company operations facilities, maintenance facilities, 
barracks, and dining facilities. It will also provide related 
installation infrastructure by extending road networks and utilities to 
the BCT facilities. The specific sequence for project funding will be 
determined during fiscal year 2010-2015 Military Construction program 
development.
                high energy laser test facility (helstf)
    Question. The High Energy Laser System Test Facility (HELSTF) is a 
pre-eminent laser test facility and a Major Range and Test Base 
Facility. Yet your budget calls for mothballing certain HELSTF 
capabilities that other Defense services and agencies tell me they 
need. How do those cuts comply with your duty to maintain HELSTF as a 
Major Range and Test Base Facility for the good of all of DOD, not just 
the Army?
    Answer. When preparing the fiscal year 2009 President's budget, the 
Army consulted with potential users across the Department of Defense 
(DOD) regarding requirements for use of the High Energy Laser System 
Test Facility (HELSTF) megawatt laser capabilities. At that time, we 
concluded there were no firm requirements for either the Mid-Infrared 
Advanced Chemical Laser (MIRACL) or the Sea Lite Beam Director (SLBD). 
The DOD Test Resource Management Center (TRMC) concurred with our 
decision when it certified our fiscal year 2009 test and evaluation 
budget on January 31, 2008.
    As required by the fiscal year 2008 National Defense Authorization 
Act, the Army, with TRMC as the lead, is conducting a cost benefit 
analysis of the proposed reduction of funding at HELSTF. The analysis 
will include an updated survey of all DOD and Service projected 
requirements to determine if future year requirements have emerged 
since the initial survey for megawatt class chemical lasers.
    HELSTF remains operational to support laser programs. HELSTF will 
be a vital asset as the DOD moves forward with solid states laser 
development.

                          SUBCOMMITTEE RECESS

    Senator Inouye. The Defense Subcommittee will reconvene on 
Wednesday, March 5, at 10:30 a.m. At that time, we'll hear from 
the Department of the Navy. The subcommittee will stand in 
recess.
    [Whereupon, at 12:12 p.m., Wednesday, February 27, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 5.]

</pre></body></html>
